<html>
<title> - H.R. 1456 and H.R. 1814</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1456 and H.R. 1814
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             July 24, 2001
                               __________

                           Serial No. 107-52
                               __________

           Printed for the use of the Committee on Resources





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE
74-087                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 24, 2001....................................     1

Statement of Members:
    Goode, Hon. Virgil H., Jr., a Representative in Congress from 
      the State of Virginia......................................     2
        Prepared statement on H.R. 1456..........................     3
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2
    Johnson, Hon. Nancy L., a Representative in Congress from the 
      State of Connecticut.......................................    38
        Prepared statement on H.R. 1814..........................    39
    Maloney, Hon. James H., a Representative in Congress from the 
      State of Connecticut.......................................    40
        Prepared statement on H.R. 1814..........................    41
    Neal, Hon. Richard E., a Representative in Congress from the 
      State of Massachusetts.....................................    42
        Prepared statement on H.R. 1814..........................    43
    Olver, Hon. John W., a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement on H.R. 1814..........................     6
        Letters submitted for the record on H.R. 1814............     8

Statement of Witnesses:
    Brady, Peg, Director of Conservation Programs, Appalachian 
      Mountain Club, Boston, Massachusetts.......................    66
        Prepared statement on H.R. 1814..........................    68
    Colson, Ann T., Director of Volunteers and Trails 
      Coordinator, Connecticut Forest and Park Association, 
      Rockfall, Connecticut......................................    69
        Prepared statement on H.R. 1814..........................    72
    Galvin, Denis, Deputy Director, National Park Service, U.S. 
      Department of the Interior, Washington, DC.................    53
        Prepared statement on H.R. 1456..........................    56
        Prepared statement on H.R. 1814..........................    56
    Johnson, Florella H., Associate Superintendent, Franklin 
      County Schools, Rocky Mount, Virginia......................    59
        Prepared statement on H.R. 1456..........................    62

Additional materials supplied:
    Collins, Kevin, Acting Director, Conservation Policy, 
      National Parks Conservation Association, Washington, DC, 
      Letter submitted for the record on H.R. 1456...............    81









     HEARING ON H.R. 1456, TO EXPAND THE BOUNDARY OF THE BOOKER T. 
WASHINGTON NATIONAL MONUMENT, AND FOR OTHER PURPOSES; AND H.R. 1814, TO 
    AMEND THE NATIONAL TRAILS SYSTEM ACT TO DESIGNATE THE METACOMET-
   MONADNOCK-SUNAPEE-MATTABESETT TRAIL EXTENDING THROUGH WESTERN NEW 
HAMPSHIRE, WESTERN MASSACHUSETTS AND CENTRAL CONNECTICUT FOR STUDY FOR 
           POTENTIAL ADDITION TO THE NATIONAL TRAILS SYSTEM.

                              ----------                              


                         Tuesday, July 24, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1324, Rayburn House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE JOEL HEFLEY, CHAIRMAN, SUBCOMMITTEE 
        ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

    Mr. Hefley. The Committee will come to order.
    Good morning. Welcome to the hearing today.
    This morning, the Subcommittee on Parks, Recreation, and 
Public Lands will hear testimony on two bills, H.R. 1456 and 
H.R. 1814.
    H.R. 1456, introduced by Congressman Virgil Goode from 
Virginia, would expand the boundary of the Booker T. Washington 
National Monument in southwestern Virginia through the purchase 
of 15 acres adjacent to the existing monument.
    Mr. Hefley. H.R. 1814 was introduced by Congressman John 
Olver of Massachusetts. This bill would amend the National 
Trails System Act to designate the Metacomet-Monadnock-Sunapee-
Mattabesett trail extending through western New Hampshire, 
western Massachusetts, and central Connecticut for study for 
potential addition to the National Trails System.
    Mr. Hefley. Mr. Olver, is there anyway we could name that 
the Olver-Hefley Trail and just--
    [Laughter.]
    Mr. Olver. Well, it all lies within the Silvio Conte Fish 
and Wildlife Refuge, so it might be appropriately the Conte 
Trail, if you would prefer.
    [Laughter.]
    Mr. Hefley. Whatever. We need to do that or get a smarter 
Chairman who can pronounce the name better.
    [Laughter.]
    At this time, I would like to ask unanimous consent that 
Congressmen Goode and Olver be permitted to sit at the dais, 
following their statements, if they would like to. And you are 
welcome to do that. Without objection, so ordered.
    I would like to thank our witnesses for being here today to 
testify on these bills.
    [The prepared statement of Mr. Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
  National Parks, Recreation, and Public Lands, on H.R. 1456 and H.R. 
                                  1814

    Good morning and welcome to the hearing today. This morning, the 
Subcommittee on National Parks, Recreation and Public Lands will hear 
testimony on two bills--H.R. 1456 and H.R. 1814.
    H.R. 1456, introduced by Congressman Virgil Goode of Virginia, 
would expand the boundary of the Booker T. Washington National Monument 
in southwestern Virginia through the purchase of fifteen acres adjacent 
to the existing monument.
    H.R. 1814 was introduced by Congressman John Olver of 
Massachusetts. This bill would amend the National Trails System Act to 
designate the Met-a-comet - Ma-nad-nock Sen-a-pee - Matt-a-be-sit Trail 
extending through western New Hampshire, western Massachusetts, and 
central Connecticut for study for potential addition to the National 
Trails System.
    At this time, I would like to ask unanimous consent that 
Congressmen Goode and Olver be permitted to sit on the dias following 
their statements. Without objection, so ordered.
    I would like to thank all of our witnesses for being here today to 
testify on these bills and now turn to the Ranking Member, Ms. 
Christensen.
                                 ______
                                 
    Mr. Hefley. And I wonder, Mr. McGovern, do you have any 
comments you would like to make?
    Well, then let's go ahead with the witnesses, beginning 
with Virgil.
    Mr. Goode, would you like to start?

 STATEMENT OF THE HONORABLE VIRGIL GOODE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goode. Thank you, Mr. Chairman.
    I want to thank you, your Committee, and your staff for all 
of the courtesy and kindness that you have extended to us in 
preparing for this hearing.
    We are here today on behalf of H.R. 1456. H.R. 1456 would 
expand the boundary of the Booker T. Washington National 
Monument located in Hardy, Virginia.
    That is the county of Franklin. I am a native and lifelong 
resident of Franklin County, and I have personal knowledge and 
familiarity with the monument and the surrounding area.
    I can attest to the rapid growth that the area has 
experienced over the past few years. Ten years ago, there was 
no stoplight in the vicinity of Booker T. Washington National 
Monument. Now, less than a half mile down the road, there is a 
stoplight.
    In the last 6 months, we have seen a huge building-supply 
store go up. And the growth and development on Smith Mountain 
Lake is going to engulf Booker T. Washington National Monument.
    And the addition of 15 acres would help preserve the 
quality of the Booker T. Washington National Monument and 
preserve it for future generations.
    The 15 acres adjacent to the monument has been put up for 
sale by the owner, and we have the desire to maintain the 
rural, pastoral character of the Booker T. Washington National 
Monument and to prevent the adjacent property from being 
developed.
    This bill would facilitate the expansion of the monument 
boundary and the purchase of this property by the National Park 
Service.
    We will hear from others testifying today that Booker T. 
Washington National Monument is a wonderful national memorial 
to Booker T. Washington. The 224-acre park is comprised of 
rolling hills, woodlands, fields, the Burroughs house, the Big 
House, the two slave cabin sites.
    The park portrays what Booker T. Washington's rural life on 
a small tobacco farm was like, and the rural character is 
critical to the park's interpretation of his life as an 
enslaved child during the Civil War.
    It also is important to note that seven of the 15 acres, 
which this legislation would expand to include, were part of 
the original farm.
    And I hope that we can maintain the rural character of 
Booker T. Washington National Monument, and I hope that it will 
be the pleasure of this Committee to favorably report H.R. 
1456.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goode follows:]

  Statement of The Honorable Virgil H. Goode, Jr. a Representative in 
           Congress from the State of Virginia, on H.R. 1456

    Dear Mr. Chairman:
    First, let me thank you and all of the members of the subcommittee 
for having a hearing on H.R. 1456 and for allowing me the opportunity 
to speak on behalf of the bill.
    H.R. 1456 would expand the boundary of the Booker T. Washington 
National Monument located in Hardy, Virginia in Franklin County, 
Virginia. I am a native and life-long resident of Franklin County, so I 
have some personal knowledge and familiarity with the monument and the 
surrounding area. I can attest to the rapid growth that this area has 
experienced over the past few years. The proximity of the monument to 
Smith Mountain Lake poses a real threat to the character and pastoral 
nature of the Booker T. Washington National Monument.
    Smith Mountain Lake is a rapidly growing area. It is a popular 
place for new homes, vacationers, boaters, fishermen and the like. The 
increase in residents and visitors brings increased development, 
business, and traffic. As pictures taken from the boundary of the 
monument show, development is already within sight of the property.
    A parcel of land, totaling 15 acres, adjacent to the monument has 
been put up for sale by the owner. Due to the desire to maintain the 
rural, pastoral character of the Booker T. Washington National Monument 
and to prevent the adjacent property from being developed, I introduced 
H.R. 1456 to facilitate the expansion of the monument boundary and the 
purchase of this property by the National Park Service.
    As we will hear/have heard from others testifying today, the Booker 
T. Washington National Monument is a wonderful national memorial to 
Booker T. Washington. The 224 acre park is comprised of rolling hills, 
woodlands, fields, the Burrough's house, or ``Big House,'' and two 
slave cabin sites. The park portrays what Washington's rural life on a 
small tobacco farm was like and the rural character is critical to the 
park's interpretation of his life as an enslaved child during the Civil 
War. It is also important to note that seven of the 15 acres that this 
legislation would expand the park to include, were part of the original 
farm.
    I hope that we can maintain the rural character of the Booker T. 
Washington National Monument. I believe that this is a worthwhile 
endeavor for the National Park Service and I hope that you will show 
this legislation favorable consideration.
                                 ______
                                 
    Mr. Hefley. Thank you, Virgil.
    Mr. Olver?

  STATEMENT OF THE HONORABLE JOHN OLVER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Olver. Thank you very much, Mr. Chairman.
    And I want to thank you for holding this hearing and for 
the opportunity to appear before the Committee.
    I am here to ask for your support on H.R. 1814, a bill to 
study the feasibility of establishing a Monadnock-Sunapee 
greenway, the Metacomet-Monadnock Trail, the Metacomet Trail, 
and the Mattabesett Trail, and additional potential trails as a 
250-mile National Scenic Trail from the Long Island Sound to a 
junction with Appalachian Trail in New Hampshire.
    Let me begin by thanking the folks on the ground, the many 
volunteers and paid staff of the trail groups in New England 
who have worked hard to support this bipartisan bill, which is 
sponsored by every Member who has part of the proposed trail in 
his or her district.
    In Massachusetts, I want to thank particularly members of 
the Berkshire chapter of the Appalachian Mountain Club, 
including Pat Fletcher, Pete Westover, and Chris Ryan.
    In Connecticut, I want to thank the Connecticut Forest and 
Parks Association; Ann Colson, who is here with us today and 
will speak later; and Patty Pendergast; as well as other 
members of the association who have worked tirelessly to bring 
key stakeholders together for this study.
    Without people like Ann and Patty and Pat and Pete and 
Chris, we would never have the recreational opportunities 
available to us today.
    In New Hampshire, our colleague Mr. Bass is also leading 
the way, and I thank him for his support.
    With your help and with the Committee's help, I am hopeful 
that the feasibility study will be conducted and will involve 
the maintaining clubs and associations, as they will be key to 
eventual success.
    Mr. Chairman, the purpose of this bill is to conduct a 
study to determine the suitability for inclusion in the 
National Trails System of this 260-mile extended trail.
    And I have a whole series of letters, which I will present 
to you. There are about 30 of them from conservation groups, 
from state and municipal officials, and from some individuals 
along the length of the trail in support of it.
    I have hiked every mile of the proposed trail in 
Massachusetts. And while some segments are well-protected, 
others are subject to serious encroachment.
    In my district, local trail groups, land trusts, and 
conservation organizations are excited and supportive of the 
study, and they look forward to working with the National Park 
Service.
    I have a map which I have put together, and I would ask 
your indulgence, because I think it is easier if I bring it 
forward and show you some of the key features of this.
    This shows where the Appalachian Trail itself comes through 
from Pennsylvania, New York, just touches the very northeastern 
corner of Connecticut, and then crosses catty-corner and goes 
off in a northeasterly direction to Mount Katahdin in Maine.
    And then these series of trails, the Mattabesett is here. 
The Metacomet-Monadnock goes from Meriden, Connecticut, all the 
way through Connecticut, up through Massachusetts, to Mount 
Monadnock in New Hampshire. And then the Monadnock-Mount 
Sunapee connection goes to within about 25 crow-fly miles of 
connection with the Appalachian Trail.
    And there is an additional New Hampshire state park, 
Cardigan State Park, with a lovely mountain with exceptionally 
good views that is only 6 miles from the Appalachian Trail.
    The northern portion of this is a series of Monadnocks. 
Monadnocks are isolated peaks left from glaciation, from the 
major ice ages, where the glaciers scoop large amounts of 
earth. And the top of Mount Monadnock, the last most of 1,000 
feet, is rock with extensive slickensides showing in various 
places on the mountain. It is a very interesting geological 
feature.
    Monadnock is over 3,000 feet high. It is 2,500 feet above 
the valley floors of the Merrimack and Connecticut Rivers to 
the east and to the west.
    Mount Cardigan in the area, the feasibility would ask 
whether it can reach the Appalachian Trail, is also in 
Monadnock. There are several mountains down to a section, to a 
point about here in the lower southern part of Massachusetts, 
where almost the whole rest of this, all of the named trails 
and the established trails, are on a volcanic basalt ridge, 
which was created 250 million years ago, all of it. And it 
shows in the pictures here, until one gets down to the southern 
end of the Mattabesett Trail, which is only 6 crow-fly miles 
from Long Island Sound.
    So at the Long Island Sound, just a few miles east, if you 
can reach it, if it is feasible to do so, within a few miles of 
New Haven. It passes through the metropolitan areas of 
Hartford, with Meriden and New Britain, the major cities in 
Connecticut, in this area. And then it passes right through the 
western metropolitan area, the Springfield-Holyoke-Chicopee 
metropolitan area, with about a quarter of the population to 
the north and west of the trail, which is, at that range, about 
1,000 feet above the valley floor and very sharply delineated 
by the kind of geology.
    And then on through New Hampshire on the Monadnocks.
    And I have this series of pictures. This shows part of the 
360-degree view. Quite spectacular. From Sunapee, from 
Monadnock, which I have described.
    Grand Monadnock is a mountain. Probably has the largest 
number of people climbing that mountain of any mountain of any 
significant size in the United States. Every year, hundreds of 
thousands of people make it up Mount Monadnock. And the skyline 
of Boston is visible 60 miles away from there.
    And these are views, again, from Erving, Massachusetts, 
showing the top of the basalt ridge, which is quite sharply 
delineated, quite sharp escarpment on the north and west side 
of that whole ridge.
    This is a view from Mount Tom, just west of Holyoke, and 
the view westward over to the small city of Easthampton, again 
showing the nature of the basalt rock.
    This is the view southward. This you have to imagine. I 
could see the skyline of both Springfield, Massachusetts, 
150,000, and Hartford, Connecticut, in this picture. You would 
have to imagine it, from what shows up in the graininess of the 
film.
    And then these pictures are the southern end of that basalt 
ridge, because the basalt ridge goes all the way to very 
southern extremity of the Mattabesett Trail, 6 miles from the 
Long Island Sound.
    And I will leave this, of course, for your perusal, if you 
wish to do so.
    And I thank you very much for allowing me to go a few 
minutes longer with the picture show. And I appreciate very 
much your consideration. And we have a number of our Member 
supporters here to speak on behalf of the proposal.
    [The prepared statement of Mr. Olver follows:]

  Statement of The Honorable John Olver, a Representative in Congress 
             from the State of Massachusetts, on H.R. 1814

    Mr. Chairman, thank you for holding this hearing and for the 
opportunity to appear before you and the Committee. I am here to ask 
for your support of H.R. 1814, a bill to study the feasibility of 
establishing the Monadnock-Sunapee Greenway, Metacomet-Monadnock Trail, 
Metacomet Trail, Mattabesett Trail, and additional potential trails as 
a 250 mile National Scenic Trail from the Long Island Sound to a 
junction with the Appalachian Trail in New Hampshire.
    Let me begin by thanking the folks on the ground--the many 
volunteers and paid staff of the trail groups in New England who have 
worked hard to support this bi-partisan bill which is sponsored by 
every Member who has part of the proposed trail in their district.
    In Massachusetts, I want to particularly thank Members of the 
Berkshire Chapter of the Appalachian Mountain Club--including Pat 
Fletcher, Pete Westover, and Chris Ryan.
    In Connecticut I would like to thank the CT Forest and Parks 
Association. Ann Colson, who is here with us today, and Patty 
Pendergast--as well as other members of the Association have worked 
tirelessly to bring together key stakeholders of this study. Without 
people like Ann and Patty we would never have the recreational 
opportunities available to us today.
    I have here several letters of support which I would like to submit 
for the record.
    In New Hampshire--our colleague Mr. Bass is also leading the way 
and I thank him for his support. With your help I am hopeful the 
feasibility study would be conducted in a manner that involves the 
maintaining clubs and associations--as they will be key to our success.
    Mr. Chairman, the purpose of this bill is to conduct a study to 
determine the suitability for inclusion in the National Trails System 
of this 260-mile extended trail. I have hiked every mile of the 
proposed trail in Massachusetts and while some segments are well 
protected, others are subject to serious encroachment. In my district--
local trail groups, land trusts, and conservation organizations are 
excited and supportive of this study and look forward to working the 
National Park Service. Using this map and photos I'd briefly like to 
orient the Committee and point out some of the highlights.
    The trail could eventually connect here with the Appalachian 
National Scenic Trail in New Hampshire. The trail would then largely 
follow existing trails through the Monadnock-Sunapee Greenway Trail.
    Shown here are:
    (1) Mt. Sunapee and
    (2) a view from Mt. Monadnock which offers a grand 360 degree view.
    The trail would then connect to the Metacomet-Monadnock Trail in 
Massachusetts.
    Shown here are:
    (3) a view from Erving and
    (4) a scene from the end of the trap rock ridge
    Continuing down through Massachusetts are
    (5) a view from Mt. Holyoke and
    (6) a view from Mt. Tom
    Incidently, I might point out that the Mt. Tom range was recently 
recognized as one of only ten of this country's Last Chance Landscapes.
    (7) Still in Massachusetts, this shot shows the CT river and both 
the cities of Hartford and Springfield.
    Continuing down into the state of Connecticut
    (8) This photo shows Castle Craig in Meriden. Castle Craig, a 
Norman-style tower overlooks the Elmere Reservoir in Meriden. Hikers on 
the Metacomet Trail pass the castle as they hike from East Peak (976 
feet) to West Peak (1074 feet).
    (9) Also from the Metacomet, two young hikers survey the view of 
South Mountain and Lamentation Mountain, traprock ridges on the trail.
    (10) Finally, this is a view from Bluff Head, North Guilford. On a 
clear day you can see Long Island Sound on the horizon, only 6 or 8 
miles as the crow flies.
    Ideally we hope that the trail could extend down to Long Island 
Sound.
    Mr. Chairman, I know that I am running out of time so I will leave 
the details to your expert witnesses. I would just like to quickly say 
that through this bill I only hope to provide an opportunity for these 
groups--these volunteers and dedicated employees--to allow for the 
possibility to one day establish permanent protection for this treasure 
and for our country's citizens to enjoy. Throughout my life I have 
enjoyed day hiking, long distance back-packing, and serious 
mountaineering. I simply want to help make sure these opportunities--
which I have had to pleasure to enjoy, remain available for future 
generations.
    Thank you
                                 ______
                                 
    [The letters submitted for the record by Mr. Olver follow:]
    [GRAPHIC] [TIFF OMITTED] T4087.002
    
    [GRAPHIC] [TIFF OMITTED] T4087.003
    
    [GRAPHIC] [TIFF OMITTED] T4087.004
    
    [GRAPHIC] [TIFF OMITTED] T4087.005
    
    [GRAPHIC] [TIFF OMITTED] T4087.006
    
    [GRAPHIC] [TIFF OMITTED] T4087.007
    
    [GRAPHIC] [TIFF OMITTED] T4087.008
    
    [GRAPHIC] [TIFF OMITTED] T4087.009
    
    [GRAPHIC] [TIFF OMITTED] T4087.010
    
    [GRAPHIC] [TIFF OMITTED] T4087.011
    
    [GRAPHIC] [TIFF OMITTED] T4087.012
    
    [GRAPHIC] [TIFF OMITTED] T4087.013
    
    [GRAPHIC] [TIFF OMITTED] T4087.014
    
    [GRAPHIC] [TIFF OMITTED] T4087.015
    
    [GRAPHIC] [TIFF OMITTED] T4087.016
    
    [GRAPHIC] [TIFF OMITTED] T4087.017
    
    [GRAPHIC] [TIFF OMITTED] T4087.018
    
    [GRAPHIC] [TIFF OMITTED] T4087.019
    
    [GRAPHIC] [TIFF OMITTED] T4087.020
    
    [GRAPHIC] [TIFF OMITTED] T4087.021
    
    [GRAPHIC] [TIFF OMITTED] T4087.022
    
    [GRAPHIC] [TIFF OMITTED] T4087.023
    
    [GRAPHIC] [TIFF OMITTED] T4087.024
    
    [GRAPHIC] [TIFF OMITTED] T4087.025
    
    [GRAPHIC] [TIFF OMITTED] T4087.026
    
    [GRAPHIC] [TIFF OMITTED] T4087.027
    
    [GRAPHIC] [TIFF OMITTED] T4087.028
    
    [GRAPHIC] [TIFF OMITTED] T4087.029
    
    [GRAPHIC] [TIFF OMITTED] T4087.030
    
    [GRAPHIC] [TIFF OMITTED] T4087.031
    
    Mr. Hefley. Well, thank you very much. That was very 
helpful.
    Mrs. Johnson? Nancy?

 STATEMENT OF THE HONORABLE NANCY JOHNSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mrs. Johnson. Thank you very much, Mr. Chairman, and 
members of the Committee, for holding this hearing and for 
hearing us out.
    The Metacomet and Mattabesett trails, part of the 700 miles 
of the Blue-Blazed Hiking Trail System, follow a stunning path 
up the center of Connecticut, providing breathtaking views of 
Connecticut's diverse landscape.
    From urban centers to atop sheer cliff faces, these trails 
meander through the State of Connecticut before joining the 
Sunapee and Monadnock trails, which terminate at Mount 
Monadnock in New Hampshire.
    Unfortunately, these trails are threatened and future 
generations may not have the opportunity to hike along these 
footpaths. Currently only 25 percent of the trail is on 
publicly held land. The remainder is on private land that 
depends on the benevolence of property owners.
    Increasing development in formerly marginal areas threatens 
the trails. Designation as a National Scenic Trail will enhance 
protection efforts.
    This bill provided funding for a 2-year feasibility study 
for potential addition to the National Trails System. Yet even 
with passage of this bill, these trails will not be able to 
receive this designated status for another 10 years. If we do 
not begin this process immediately, these trails will simply 
disappear.
    This bill is important for all residents of New England. As 
you saw from Representative Olver's maps, an entire trail 
system from the Canadian border to Long Island Sound would 
enable public access from the last of New England's wildest 
places to the most densely populated estuary in the United 
States.
    The trails afford everyone the chance to visit some of the 
most beautiful areas in New England. Through footpaths, the 
public is afforded a peaceful outdoors experience, away from 
the harried urban environment that presses in so closely in 
this region.
    Designation as a National Scenic Trail also ensures that 
these beautiful areas receive proper environmental protections. 
Hiking along designated footpaths has the least impact of any 
outdoor recreational experience.
    For these reasons, a change in the trail's designation is 
the perfect solution to public access and protection along 
Connecticut's Metacomet Traprock Ridge.
    This incredible basalt ridge is the only one its kind in 
the East, and you have to go west of Wyoming to find similar 
geographic structures. The footpaths take the public through 
incredible natural formations that are rare in our region.
    Without protection, this area could face severe 
environmental degradation.
    In order to complete the last 11 miles to connect the 
Mattabesett to the sound, several coastal towns in Connecticut 
have put a potential trail system into their municipal plans of 
development and are actively buying property to create the 
greenway that will harbor the Blue-Blazed hiking trail 
extension to Long Island Sound.
    Forty-six people showed up at a public hearing I held in my 
district on extremely short notice, demonstrating the great 
interest that residents of Connecticut have in protecting these 
trails. These interested parties included municipal officials, 
regional planning agencies, hikers, land trusts 
representatives, and other nonprofit representatives.
    In Connecticut, we receive relatively few Federal dollars 
for lands. Though I worked for over 16 years with the 
Appropriations Committee to complete purchase of the parcels 
that compose the Appalachian Trail in the western part of my 
district, and another 10 years will all of you to get the 
Farmington River designated a National Wild and Scenic River, 
very little Federal activity is actually present in 
Connecticut.
    But because of our past successes, and because we are 
losing so much of our open space to development, interest is 
intense and high in Federal assistance on this project.
    Of course, in Connecticut there are the same concerns with 
eminent domain and Federal control. But it is through knowledge 
and this kind of study that all of the communities get to think 
through jointly the benefits of trail protection, and the 
vitality it will restore to central Connecticut, and the 
opportunity to all of New England to connect the Canadian 
border with the Long Island Sound and the great wildernesses of 
the Northeast with the urban population centers.
    So I thank you for your consideration. I urge your support 
of what I consider to be a very sensitive and important bill. 
And I thank you for this opportunity to testify.
    [The prepared statement of Mrs. Johnson follows:]

   Statement of The Honorable Nancy L. Johnson, a Representative in 
          Congress from the State of Connecticut, on H.R. 1814

    Mr. Chairman, members of the Committee, thank you for holding this 
hearing today, and for your interest in this legislation.
    The Metacomet and Mattabesett Trails (part of the 700 mile of the 
Blue-Blazed Hiking Trail System) follow a stunning path up the center 
of Connecticut, providing breathtaking views of Connecticut's diverse 
landscape. From urban centers to atop sheer cliff faces, these trails 
meander through the state of Connecticut before joining the Sunapee and 
Monadnock trails which terminate at Mount Monadnock in New Hampshire.
    Unfortunately, these trails are threatened and future generations 
may not have the opportunity to hike along these foot paths. Currently 
only 25% of the trail is on publicly held land. The remainder exists on 
private land that depends on the benevolence of property owners. 
Increasing development in formerly marginal areas threatens the trail. 
Designation as a National Scenic Trail will enhance protection efforts.
    This bill provides funding for a two year feasibility study for 
potential addition to the National Trails System. Yet even with passage 
of this bill, these trails will still not be able to receive the 
elevated status for another ten years. If we do not begin this process 
immediately, these trails may disappear.
    This bill is important for all of the residents of New England. An 
entire trail system from the Canadian border to Long Island Sound would 
enable public access from the last of New England's wildest places to 
the most densely populated estuary in the United States. The trails 
afford everyone the chance to visit some of the most beautiful places 
in New England. As footpaths, the public is afforded a peaceful 
outdoors experience away from the harried urban environment.
    Designation as a National Scenic Trail also ensures that these 
beautiful areas are receive proper environmental protections. Hiking 
along designated footpaths has the least impact of any outdoor 
recreational experience. For this reason, a change in the trail's 
designation is the perfect solution to public access and protection 
along Connecticut's Metacomet Traprock Ridge. This incredible basalt 
ridge is the only one of its kind in the East--you have to go out west 
to Wyoming to find similar geographic structures. The footpaths take 
the public through incredible natural communities that rare to the 
region. Without protection, this area could face severe environmental 
degradation.
    In order to complete the last eleven miles to connect the 
Mattabesett to the Sound, several coastal towns in Connecticut 
(Guilford and Killingworth) have put a potential trail system into 
their Municipal Plans of Development and are actively buying property 
to create the greenway that will harbor the Blue-Blazed Hiking Trail 
extension to Long Island Sound. Forty-six people showed up at a hearing 
I held in my district on extremely short notice demonstrating the great 
interest that the residents of Connecticut have in protecting these 
trails. These interested parties included municipal officials, regional 
planning agencies, hikers, land trusts and other nonprofits. In 
Connecticut, because we are losing so much open space to development, 
concerns about federal assistance and eminent domain do resonate as 
loudly as they do in other places.
    I urge your support for this time sensitive legislation. Thank you 
for your attention on this matter.
                                 ______
                                 
    Mr. Hefley. Thank you, Nancy.
    Mr. Maloney?

 STATEMENT OF THE HONORABLE JAMES MALONEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Maloney. Thank you, Chairman Hefley and members of the 
Committee.
    I am here to testify in support of H.R. 1814. And first I 
want to thank all of my colleagues from New England, and 
especially my partner on this bill, Mr. Olver, for providing 
leadership on this issue.
    John has been a true champion of the environment and has 
worked very, very hard on this legislation.
    There are indeed approximately 700 miles of Blue-Blazed 
hiking trails in Connecticut. Recently the entire Blue-Blazed 
system in Connecticut was designated an official state 
greenway. That speaks to the interest of the State of 
Connecticut in maintaining this trail system, in expanding it, 
and enhancing it. And there are people here from Connecticut 
who will testify in addition later on in your hearing this 
morning.
    The center point of these trails is located in my district 
at the city of Meriden. Specifically, the Hanging Hills 
formation and Mount Lamentation, both in Meriden--which are 
depicted, by the way, in Mr. Olver's photographs that he has 
presented to the Committee--offer unobstructed views of the 
Connecticut River and a terrain of tumbled ledges, brooks, 
forests, and shallow bogs.
    The Metacomet Trail, which was established in 1929, follows 
a striking traprock ridge running north from the Hanging Hills 
of Meriden to the Massachusetts line for approximately 51 
miles. And you heard that described further this morning. The 
trail continues on to Mount Monadnock in New Hampshire.
    The southern end of the trail, which also begins in Meriden 
as the Mattabesett Trail, was established in 1932, and 
continues south for 55 miles.
    These two trails, the Metacomet and Mattabesett, offer the 
finest ridge walking and cliff views in Connecticut and indeed 
in the eastern United States in many regards.
    Combined, these two trails almost completely bisect the 
state. The Metacomet and Mattabesett trails not only offer 
vistas of Long Island Sound, agricultural land, rolling hills, 
and the Connecticut River, but also provide a mostly 
uninterrupted greenway through a portion of the state that has 
seen remarkable growth and urbanization in recent years.
    Population density in Connecticut continues to rise, as 
does the demand for open recreational spaces. In fact, portions 
of my congressional district saw the highest level of growth in 
the entire state, according the latest census figures.
    I have worked hard to ensure that the quality of life of 
Connecticut families is not adversely affected by these growth 
trends. The designation of these trails as part of the National 
Scenic Trail system would further that work and guarantee the 
preservation of this trail system in perpetuity.
    With the common goals of protecting open space and 
providing recreational opportunities across America, the 
Federal, state, and local governments should be working 
together as indeed they are in this project.
    With the support of the Federal Government, you will be 
combining Federal effort with state and local efforts already 
being undertaken on the Blue-Blazed trail system.
    This bill is an important step to ensure that this and 
other opportunities like it across our country are not missed.
    Lastly, I would like to emphasize, as Mr. Olver mentioned, 
that this legislation has the support of every Member of 
Congress whose district is home to a part of this trail system. 
This remarkable level of support indicates the importance that 
communities like Meriden place not only on this system of 
trails but also on public protection of our nation's most 
precious open spaces, and certainly evidences the great support 
for this particular piece of legislation.
    Thank you for consideration of this bill, and I look 
forward to its favorable approval by your Committee. Thank you 
so much.
    [The prepared statement of Mr. Maloney follows:]

   Statement of The Honorable James H. Maloney, a Representative in 
                 Congress from the State of Connecticut

    Chairman Hefley, Ranking Member Christensen, Members of the 
subcommittee, thank you for the opportunity to testify before you today 
on H.R. 1814, which would authorize a feasibility study on a very 
important scenic trail that runs through my congressional district.
    First, I would like to thank my colleague from New England, and 
partner on this bill, Mr. Olver for providing leadership on this issue. 
He has worked very hard to develop this legislation and has been a real 
champion in the effort to protect the scenic, historic, and cultural 
integrity of our natural environment.
    There are approximately 700 miles of Blue-Blazed Hiking Trails in 
Connecticut. Recently, the entire Blue-Blazed trail system in 
Connecticut was designated as an official state greenway.
    The center point of these trails is located in my district at the 
City of Meriden. Specifically, the ``Hanging Hills'' formation and Mt. 
Lamentation both in Meriden offer unobscured views of the Connecticut 
River and a terrain of tumbled ledges, brooks, forest and shallow bogs. 
The Metacomet trail, which was established in 1929, follows a striking 
traprock ridge running north from the ``Hanging Hills'' of Meriden to 
the Massachusetts line for approximately 51 miles. The trail continues 
on to Mt. Manodnock in New Hampshire. The southern end of the trail, 
which also begins in Meriden as the Mattabesett Trail, was established 
in 1932 and continues south for 55 miles. These two trails, the 
Metacomet and the Mattabesett, offer the finest ridge walking and cliff 
views in all of Connecticut.
    Combined, these two trails almost completely bisect the state. The 
Metacomet/Mattabesett Trails not only offers vistas of Long Island 
Sound, agricultural land, rolling hills, and the Connecticut River, but 
also provides a mostly uninterrupted greenway through a portion of the 
state that has seen remarkable growth and urbanization in recent years.
    Population density in Connecticut continues to rise, as does the 
demand for open recreational spaces. In fact, portions of my 
Congressional District saw the highest level of growth in the entire 
state according to the latest census figures. I have worked hard to 
ensure that the quality of life of Connecticut families is not 
adversely affected by these recent growth trends.
    The designation of these trails as part of the National Scenic 
Trails System would further that work.
    With the common goals of protecting open space and providing 
recreational opportunities across America, the Federal, State and Local 
governments should be working together. This bill is an important step 
to ensure that this and other opportunities like it all across our 
country are not missed.
    Lastly, I would like to point out that this legislation has the 
support of every Member of Congress whose district is home to a part of 
this trail system. This remarkable level of support indicates the 
importance that communities like Meriden place not only on this system 
of trails, but also on public protection of all of our nation's most 
precious open spaces.
    Thank you for your consideration of this important legislation.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Mr. Neal, did you want testify?
    Mr. Neal. Just a couple of comments.
    Mr. Hefley. Be happy for you to, if you would like.

STATEMENT OF THE HONORABLE RICHARD E. NEAL, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Neal. Thank you. Thank you, Mr. Chairman.
    One of the reasons, Mr. Chairman, that Mr. Olver and I have 
such enthusiasm for discussing these trails, because they go to 
Connecticut and New Hampshire, is that, as the Massachusetts 
legislature currently is drawing the maps in reapportionment, 
we think there is an opportunity for the two of us to move into 
Connecticut and New Hampshire.
    [Laughter.]
    And for certain, they are trying hard to put Mr. Meehan in 
New Hampshire. I can assure you of that.
    [Laughter.]
    I do want to thank you. And John Olver has taken the lead 
on this, along with Nancy Johnson and Jim Maloney.
    But I have had great luck in this process, and I want thank 
you and members of the Committee, over the last few years, 
between the Blackstone Valley with Mr. McGovern and the 
Quinebaug-Shetucket with former Congressman Gejdenson. Two 
rivers in my congressional district were designated, with 
considerable lobbying by myself and Mrs. Johnson and others, to 
be Heritage rivers, the Blackstone and the beautiful 
Connecticut River as well.
    But the truth is that it worked very well. And I think it 
is to the credit of this Committee and others who have been 
advocates of these programs to ensure that we pay attention to 
what is our most, I think, precious resource, the environment.
    And we extend the opportunity for people to use New England 
for passive and active recreation. I would argue that there is 
not a more beautiful place that you could ever find in the fall 
than New England. And I think calling attention through 
initiatives like this is very important.
    Tracy Kidder's remarkable book a few years ago, when he 
wrote the best-seller, when he described what Northampton and 
the Pioneer Valley meant as they looked over the Mount Tom 
range and said that one of the reasons that people never leave 
that area is because they really come to believe that 
everything they are ever going to want is located right there. 
That is telling testimony, I think, about how people feel.
    And the fact that Democrats and Republicans here, with Mr. 
Olver's leadership, have rallied around this initiative I think 
speaks volumes to the way we feel about our home in New 
England.
    The last thing that I would say is that this Committee 
really has been very kind to me over 13 years in the House. You 
have really done very well by me, Democrats and Republicans, 
and I am indeed very grateful for the work that you have put 
forward. And if you have any questions, I am happy to join in.
    [The prepared statement of Mr. Neal follows:]

    Statement of The Honorable Richard E. Neal, a Representative in 
         Congress from the State of Massachusetts, on H.R. 1814

    Mr. Chairman, thank you for this opportunity to testify on behalf 
of the Metacomet-Monadnock Trail in Massachusetts. The legislation 
which I am supporting here, introduced by my Massachusetts delegation 
colleague, Mr. Olver, would allow the National Park Service to examine 
the 3 existing trails, as well as opportunities to extend the trail 
through the remaining 2 gaps.
    National scenic trails are those that provide for maximum 
recreation potential and for the conservation and enjoyment of the 
nationally significant scenic, historic, natural or cultural qualities 
of the areas through which such trails may pass. This trail passes all 
of these requirements, as a National Park Service study will surely 
show.
    A section of this trail in my district includes the Holyoke 
Mountain Range and is within an hour drive of three-quarters of a 
million people. Throughout the range, outcrops open up to many 
spectacular views of the Connecticut River valley, including the Oxbow, 
a circular lake formed by flooding caused by an ice jam in 1840 which 
changed the boundaries of the towns of Northampton and Hadley.
    This section of the trail is the site of many historically 
significant events, including the Shays' Rebellion. Daniel Shays, 
warden of the town of Pelham, rounded up a group of farmers whose farms 
had fallen into disrepair when they fought in the Revolution. They 
rebelled in response to the confiscation of their lands and livestock 
in lieu of tax payments. Massachusetts militia were sent to quell their 
uprising and Shays' rebel band hid along the trail in the legendary 
Horse Caves. These caves can still be visited today.
    The Holyoke Range was created when hardened volcanic lava was 
uplifted millions of years ago. The range was formed in an East-West 
direction, even though every other range in the valley runs North-
South. This orientation has caused the forests of each side of the 
range to be completely different. The north side resembles the forests 
of northern New England with hemlock, white pine, beech and birch. The 
south side resembles southern New England with oak, hickory and shrubs 
of the heath family. One can travel the Metacomet-Monadnock trail and 
see the beauty of both southern and northern New England.
    We in Massachusetts have had great success working with the 
National Park Service on conservation projects. We have strong 
grassroots organizations which can step in and make a National Scenic 
Trail successful. These groups have had success along the Connecticut 
River for many years and are capable of providing the necessary support 
to a National Scenic Trail. This legislation is formally supported by 
conservation groups, the Appalachian Mountain Club, local government 
and the Commonwealth of Massachusetts Office of Environmental Affairs.
    I appreciate your cooperation and assistance with this request and 
look forward to working with you on behalf of the Metacomet-Monadnock-
Sunapee-Mattabesett Trail.
                                 ______
                                 
    Mr. Hefley. Well, you have convinced me. This Committee is 
going to make a field hearing up there, as of your testimony 
today.
    About October, would that be a good time for us?
    [Laughter.]
    Mr. Neal. You can stay at my home.
    [Laughter.]
    Mr. Hefley. Well, we thank you all, for all of your 
testimony.
    Let me just hit a few quick questions, and then we will let 
the Committee.
    First, Virgil, this 15 acres that we are talking about 
here. That was part of the original farm?
    Mr. Goode. Half of it was. It is near Route 122, which is 
the main road in that section of Franklin County. And if the 15 
acres could be acquired, it would be a buffer between the 
Booker T. Washington National Monument and all the growth that 
is occurring on Smith Mountain Lake at West Lake Corner. So it 
is a visible 15 acres, and half of it was in the original farm.
    Mr. Hefley. Would it be an effective buffer? There is 
considerable expense to doing this, as you know. If we do this, 
would it be the buffer you need to protect the monument from 
now on?
    Mr. Goode. There will never be another opportunity. The 
developer is coming right down the highway toward Booker T. 
right now. The building-supply store that I mentioned is 
between the stoplight and the Booker T. Washington monument, 
and grading is already occurring between the building-supply 
store, which opened about a month ago, and the land that is for 
sale.
    And the other witnesses can testify and also speak to that 
later on.
    Mr. Hefley. All right.
    On the other issue, the trail, two questions, Mr. Olver and 
Nancy and Jim.
    How much use is there of the existing trail system that you 
have? And you have a considerable trail system there.
    And secondly, Nancy, you particularly mentioned that only 
about 25 percent of it is on public land now. What problems do 
we face with getting private landowners either to give us an 
easement or sell right-of-way or whatever? How would you plan 
to handle the private land that is there?
    Mrs. Johnson. Well, first of all, the study is the first 
and crucial step, because it is through the study that people 
begin to look at the larger possibilities here and how their 
land might be part of a preservation effort.
    I would like to call this Committee's attention to the Wild 
and Scenic River experience that we had, because one of the 
real difficulties that we face, governing from Washington, is 
that the regions of the country are very different. And so we 
don't have any of the problems that a state like Nevada has, 
where the Federal Government owns and operates so much Federal 
land, because we don't have that kind of Federal presence on 
our lands.
    But it has meant that in order to have Federal assistance, 
we have had to adjust Federal law to our needs. And when I 
tried to get the Farmington River designated a Wild and Scenic 
River under President Reagan--who remember at the beginning of 
his term, he was all about local control and so on and so 
forth--I got the study. And from that, everybody, all the 
towns, got to understand why this was important and how it 
could be done in a way that was useful to them.
    But the study took a while to get going because we wanted 
local representation on the study Committee, because our lands 
along the river are also either state parks or locally owned. 
But the majority was locally owned.
    And we ended up adjusting the Wild and Scenic River law to 
what is now called the partnership rivers law. That is the 
eastern addition of the national Wild and Scenic Rivers 
program. It is still called a Wild and Scenic River, but it is 
governed through a partnership of state and local and Federal 
effort.
    And there wasn't that sort of transference to the Federal 
Government of total power over the river. It took us several 
years to work out what would happen if the local people didn't 
live up to the standards of Wild and Scenic and how we would 
deal with that if that happened.
    So out of this study may very well come a little different 
way of governing a trail down central Connecticut than we have 
in the Appalachian area. I think it is too soon to say.
    But the study will help us lay the foundation of 
information and understanding that is essential to success. And 
then from that, we will see how we move to actually establish 
this trail and preserve it.
    But one of the things that Richard and I worked on 
extensively was President Clinton's national Heritage rivers, 
because in my part of the world, we just need a river pilot who 
helps all of these little, tiny towns, all of whom have very 
strong local governments, to just know what the Federal 
resources are.
    The configuration of our communities and the power 
distribution in our communities, where local government is very 
strong and some of us don't even have county governments, we 
did need that Federal assistance in coordinating access to 
programs that were already there.
    So in those two instances, the national Heritage rivers 
with the river pilot concept, and these partnership rivers that 
are a variant of the Wild and Scenic Rivers, we have had to, in 
the end, have a little different adaptation of the way we 
achieve Federal goals in harmony with our long tradition of 
very strong and very powerful local government.
    So I certainly wouldn't want to prejudge exactly what is 
going to come of this study, but I know one thing that will 
come of this study: preservation of this trail, because we are 
very preservation-oriented. And we are very committed to 
preserving for citizens this right to enjoy.
    Just look at small towns that have very little budgets and 
have already begun to put money aside for acquisition.
    And so, there are a lot of ways in which this could work 
out. But the first important step is the study, so everyone 
understands what the vision is and the possibilities are.
    And then, we are very good at working together. And the 
partnership in Connecticut of the Federal, state, and local 
action, as my colleague Congressman Maloney pointed out to you, 
has always been very vital and very productive.
    So I thank you for asking that question, and particularly 
for me to have the opportunity to focus your staff on the fact 
that a number of Federal laws have been adjusted when applied 
in the New England context of distributed Federalist power.
    Mr. Maloney. Mr. Chairman, could I just add to that just a 
slightly different perspective?
    Unlike states in the West, the issues of Federal lands, it 
plays out very differently in the East. The State of 
Connecticut, for example, has the lowest percentage of 
Federally owned land of any state in the country. And the 
notion of the Federal Government taking an active role in open 
space preservation is extremely well-received in Connecticut.
    The state government has also embarked on a very aggressive 
program of open space conservation. And many local communities 
and towns in Connecticut--we have no county government at all 
in Connecticut-- have been very, very actively been involved.
    One of the towns next door to me just passed a huge $30 
million proposal to acquire some open space, which they are 
going to pay for out of their town budget. That is how 
important the issue of open space is in a densely populated 
state like Connecticut.
    And the final point, Mr. Chairman, to your question, I was 
at the Castle Craig, which, again, is at the junction of the 
Mattabesett and Monadnock Trails. It shows on one of the 
photographs Mr. Olver presented to you.
    I was up there at the top of the mountain recently on a 
weekday, just a weekday in the middle of the summer. And there 
was a steady stream of people actively traversing the ridges.
    So this is a system that is very popular, very well-
regarded. And the action by the Federal Government in support 
of this legislation would be extraordinarily well-received at 
home.
    Mr. Olver. If I may add also, just very briefly, most of 
the usage is by afficianados of day hiking or long-distance 
hiking. The usage of this trail with a designation as we are 
seeking the feasibility study for would undoubtedly increase 
the usage by a substantial amount. I wouldn't want to try to 
predict exactly how much.
    I think in Massachusetts the trail that has been proposed 
here is more on public land than has been suggested in 
Connecticut. I think it is probably closer to 50 percent there, 
with some additional land that already has negotiated legal 
easements for the locus of the trail.
    And generally, the support is very strong, as Mr. Maloney 
has pointed out, for involvement in this. There is a different 
kind of way of looking at the public availability of these 
sorts of features.
    Two small sections, actually, totalling about 10 miles, 
have been designated as a National Recreation Trail. They have 
been added to the National Recreation Trail System. And those 
are part of the ridge, which, if this proves feasible, with 
your help, then would become part of the Scenic trail or 
whatever the feasibility study were to determine. Thank you.
    Mr. Hefley. Thank you.
    Committee, questions? Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    First of all, I think both these bills are in the public 
interest. I appreciate the testimony and hope that the 
Committee would favorably report them out.
    Michigan is somewhat between the far eastern states and the 
far west. We don't have quite as much Federal land, not near as 
much as the West. But we do have a little bit more Federal land 
than the original states.
    And I, in my tenure here on this Committee, have been able 
to establish 100,000 acres of wildness area, beautiful land 
that for some reason escaped cutting. It stands just as it came 
from the hand of the God.
    And the only way you can enter into the wilderness area is 
on foot. And it is just a great adventure for people, not only 
in Michigan, but people come from all around.
    So this is similar to that experience that you would create 
there.
    And I also was able to get a bill passed to have 1,000 
miles of Wild and Scenic Rivers in Michigan, which has been an 
enormous success.
    So I really feel that it is important that the development 
taking place--in my own district, there were areas 10 years ago 
that were really much as they came from the hand of God. Right 
now, you will find what I call ``starter mansions'' being built 
on tracks out there now.
    And it is a shame that we didn't--thank God, when I was in 
the state legislature, I kept buying as much land as I could 
between the city of Detroit and Flint, so we keep some green 
area. But you have to do it when you can or your do lose it. So 
I commend you for what you are doing.
    I also am happy to hear that all the Members of Congress 
through which this trail would pass are supportive of that. 
That is not quite as important to me as it is to Don Young, who 
used to be Chairman of this Committee, because Don Young, that 
is one of his first questions: Do all the Members of Congress 
support this? So I am sure Don Young would be happy to support 
you on that.
    And I really appreciate your testimony, and I want to 
support both the bills. Thank you very much.
    Mr. Hefley. Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I know that both these bills will pass overwhelmingly, but 
I am little curious as to what you see will be the restrictions 
on private property.
    The background sheet we have says that this bill is going 
to increase the protection of these trails from encroaching 
development.
    If a person has a vacant piece of land right now that he is 
planning to build let's say a small shopping center on, would 
this in any way stop that?
    Or if a homeowner does not want to--Mr. Olver mentioned the 
great increases in the number of hikers that he expects. If a 
private landowner doesn't want several thousand people hiking 
their backyard, what limitations are there?
    What do you think this is going to show, Mr. Maloney?
    Mr. Maloney. Well, the process in Connecticut has been 
almost exclusively voluntary in terms of the acquisition of 
open space land.
    For example, recently the State of Connecticut just 
completed a negotiation with a power company for the 
acquisition about 11,000 acres in Fairfield County.
    Mr. Duncan. What about the two examples I had, though? 
Could a person build a shopping center, if it blocked part of 
this trail?
    Mr. Maloney. Only if it would want to be having parking 
lots on 45-degree slopes. I don't think, as a practical matter, 
this is going to occur.
    These are ridgeline trails. And as a practical matter, the 
answer, sir, I think--
    Mr. Duncan. There is no flat land in all the hundreds--
    Mr. Maloney. I can't say there is no flat land.
    Mr. Duncan. What about through somebody's backyard?
    Mr. Maloney. Well, I think that is an issue and that will 
have to be negotiated. The feasibility study will look at that. 
And in terms of the response coming out of the feasibility 
study, as I say, the approach in Connecticut has been very much 
a voluntary approach, developing consensus for this kind of 
natural preservation.
    Mr. Duncan. But if somebody wanted to fence in their 
backyard?
    Mr. Maloney. That would be an issue, just like it is 
anywhere else.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hefley. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I just have two sort of question/comments.
    One, looking at the map, as the trail goes through 
Connecticut and Massachusetts and New Hampshire, is there any 
discussion with the Vermonters to add a little side link to the 
Long Trail that goes from Massachusetts to Canada? The Long 
Trail it is called.
    Mr. Olver. The Long Trail goes the full length of the State 
of Connecticut, and half of it is already contiguous with the 
Appalachian Trail. So Vermont has a full north-south trail.
    Now, there is talk about extending a trail also within the 
Connecticut watershed to the Connecticut lakes. There are four 
lakes at the very north end at the Canadian border, which the 
final one, the fourth Connecticut lake--I think it is fourth; 
it may be only the third--is the source of the Connecticut 
River. And there is talk of then creating a trail that would go 
to the Canadian border, as a further extension.
    But that would use partly the Appalachian Trail. As the map 
shows, it turns northward just past Hanover, New Hampshire, and 
goes northward for awhile, and then turns eastward toward Mount 
Katahdin. And at its northern most point, somewhere there, you 
would perhaps take another 60 or 100 miles of walking trail to 
the Connecticut border.
    But that is not the subject of this feasibility study.
    Mr. Gilchrest. I see.
    Mr. Olver. This one is intended to get us from the Long 
Island Sound to the Appalachian Trail junction somewhere in the 
Hanover, New Hampshire, the Dartmouth College area.
    Mr. Gilchrest. It is a great concept.
    In my district in Maryland, the bulk of my district, from 
Virginia to Pennsylvania, is carpeted with farms and dotted 
with little fishing villages. And we have been working 
diligently, not so much with a piece of legislation--although 
this is a good idea, so maybe I will bring something forward, 
Mr. Chairman--to keep agriculture profitable. Because if 
agriculture goes, then there goes your open space.
    But we have been working with farmers and the chamber of 
commerce and you name it, anybody that would listen to us, to 
create a habitat conservation corridor for wildlife.
    This trail that you are setting up is sort of a habitat 
conservation corridor for hikers. What we want to do is create 
a habitat conservation corridor for subspecies, anything other 
than humans, although humans can certainly walk through it.
    And in the process of doing this, create this habitat for 
migrating water fowl, for deer, for fox, for shorebirds, for 
Baltimore orioles, you name it.
    We have been talking to landowners--this is always an 
issue--about whether or not someone can fence off their 
backyard, or whether or not somebody can build a shopping 
plaza, or whether or not somebody can build a home for their 
children, or whether or not somebody eventually can sell that 
land so they can retire.
    What we found, something that Nancy said a little earlier, 
other than what you might find in the western states, there is 
virtually no public land or very, very little public land in 
many of the eastern states. And so people are very encouraged 
to have the Federal, state, or local government purchase 
easements on their property so that that land, like it is now, 
will look that way for generations to come.
    So these kinds of concepts in areas that are threatened by 
the megalopolis from Boston to Richmond would like to preserve 
some of their heritage, some of their tradition.
    So the panel said virtually all or most people. I haven't 
found anybody in our district yet that isn't encouraged by some 
monetary compensation stipend to preserve that land or plant 
trees or put it in the conservation easement or a conservation 
reserve program or the Swampbuster or the Sodbuster or the EQIP 
or the Farmland Protection Program or whatever else is out 
there, because we just don't have the vast stretches of 
pristine wilderness that they do west of the Mississippi River.
    But this is a great concept, and I wish you well.
    Mr. Olver. I think your concept of a habitat corridor for 
hikers is an excellent one. We will have to incorporate that 
somewhere.
    I do want to repeat, before you came in, I pointed out that 
all of this lies within the Silvio Conte Fish and Wildlife 
Refuge, so already we have tried to create a habitat there, a 
very creative piece of legislation that was, not quite like any 
other fish and wildlife refuge we have in this country. And it 
continues to evolve as really creative things ought to do.
    Mr. Gilchrest. Thank you.
    Mr. Hefley. Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And certainly, I can appreciate both of these bills. 
However, according to Don Young, I am not qualified to speak on 
them, since I have never been to either one of these areas.
    [Laughter.]
    I have very little knowledge other than what I have heard 
here today, although I find them interesting and certainly an 
appropriate discussion item for this Committee as well.
    My thought would be that, coming from a state that has 
nearly 90 percent of its state federally managed, which creates 
a whole different panoply of problems for us out there--we have 
a lot of taking of private property rights without compensation 
in these areas, due to some enthusiasm for protection of open 
spaces, even including private interest and private in-
holdings. There is always a taking of somebody's right or use 
of their land when it is within these private areas.
    I would ask and I presume none of you would be 
objectionable to the utilization of CARA dollars or moneys from 
that source to acquire the private in-holdings in some of these 
areas, if there is a willing seller/willing buyer type of 
arrangement to accommodate this.
    And the second part would be, does the group of you support 
the idea of the Federal Government--and I like the idea of a 
study. I think the study is great, because it is going to 
identify the weaknesses, identify the strengths, and make this 
a much better idea, rather than us having a dictatorial, know-
it-all, see-everything-from-Washington's-perspective and point-
of-view sort of attitude.
    Does the group support the idea of the Federal Government 
going in and actually requiring private property right holders 
to divest themselves either with compensation or without 
compensation of any rights that they may have? In other words, 
forcing themselves under something like an eminent domain type 
law?
    Mr. Olver. Mr. Gibbons, in the trail system, the National 
Trails System, I don't think that it has been typical--in fact, 
only extremely rarely used, that there have been takings in any 
of these, for the National Trails System, which is the 
designation that is being sought here.
    Mr. Gibbons. Right.
    Mr. Olver. The feasibility study--
    Mr. Gibbons. But we are worried about encroaching--
    Mr. Olver. --would define that, and that would take a 
couple of years to define what would be necessary, if anything. 
But I would anticipate that this would be totally or virtually 
totally by negotiation.
    And if you needed--
    Mr. Gibbons. Okay. So it would be willing buyer/willing 
seller?
    Mr. Olver. --to around a shopping center, because it does 
pass through low land where there may be people, if somebody 
really objects, you would move the trail, probably.
    Mrs. Johnson. I have to say that while the power of eminent 
domain is in the law, in working on the Appalachian Trail, 
which goes all up the whole northern side of Connecticut--it is 
a long distance--we did run into one instance in which eminent 
domain negotiations began. But they resulted in an agreement 
with the landowner.
    And there were several points where negotiations did go on 
with landowners. Sometimes the trail bed was moved, if there 
was an equally desirable place for it to go. Sometimes some 
other possibilities were developed to shield and make sure that 
the privacy issues that landowner was concerned about were 
addressed.
    In this area, I think the study will reveal that there are 
some areas that have become so densely populated already that 
sort of the idea of any kind of original footpath can't be 
identified, and it will be adjusted to wherever is best, maybe 
through a local park or whatever.
    So there is a lot of room for adjustment.
    The other thing I would mention to you is that I have a 
bill in the Ways and Means Committee, which I so far have not 
been able to get through, but it speaks to this very issue.
    We can't have the government buying all this land, frankly, 
I don't think. Even in the Farmland Preservation Program, there 
will never be enough resources to help protect the biggest 
farms.
    But there are other ways of doing it, through easement 
agreements that affect a local tax base. Connecticut has a very 
good law in that regard.
    And my bill will allow small landowners to, over time, 
recoup the lost value of their land, lost through contribution 
to a conservation easement or, in this case, a path easement, 
and to recoup the lost value through tax credits, so that 
actually a small landowner could gain back some of the income 
lost by foregoing the right to sell the property.
    I do think we have to be concerned about the fact that for 
most people their land is their primary asset and a large part 
of their retirement security. So I think we have to be sure 
there are diverse tools and that the negotiations do bring to 
the table everyone's interest.
    But the Federal Government coming in and mandating, that 
has been a real and honest problem in your part of the country. 
And we ought to be tougher about it as a nation, that local 
planning and local decisionmaking is every bit as important as 
national authority.
    Mr. Gibbons. Well, let me just finish up in the seconds 
that I have, which have already elapsed here.
    You know, trail systems always pass through many states, 
many counties, and gather a large number of supporters whose 
interests are oftentimes much greater than the individual 
private property owners that happen to be in the path of that 
trail over time.
    What I worry about is the long-term effect of having a 
large group of individuals' combined interest along the length 
of a trail dictate, of course, what would otherwise be local 
control and local input out of the picture.
    Mrs. Johnson. Let me just remind you, though, when we did 
the Wild and Scenic River study in Connecticut, it goes through 
Connecticut and Massachusetts. And, actually, we never 
designated the Massachusetts segment, because the Massachusetts 
people in those towns didn't want it.
    We did designate the Connecticut segment because the 
Connecticut landowners and the Connecticut towns did want it, 
and they worked together to satisfy themselves that their 
rights locally would be protected at the same time they 
achieved this national objective.
    So just because we do a study, that doesn't preordain where 
we are going to end up. We are going to end up wherever we as a 
community in the Northeast are willing to end up.
    Mr. Gibbons. Let me just say, I support the study. I think 
it is a great idea. I am just concerned about private property 
owners losing power to bigger interests and combined political 
power of states outside or individual congressional districts 
outside of the affected area.
    And when those combine, saying that it is better for us to 
impose on your district what we think you should do and what 
your private landowners should do, even though it doesn't 
affect us, I mean, the combined power of those political 
entities oftentimes dictates.
    What I only wanted to mention was that I worry about 
combined power, political power, over individual property 
rights and property rights owners.
    Thank you, Mr. Chairman.
    Mr. Hefley. Ms. Solis?
    Ms. Solis. Thank you, Mr. Chairman.
    I, too, want to associate my comments with Mr. Kildee. I am 
very supportive of both pieces of legislation and am working on 
my own efforts to try to create an urban conservancy with 
Federal assistance.
    And I can understand the issues being raised here regarding 
eminent domain and property rights. We are having to deal with 
that along our river, which encompasses over 30 communities, 
municipalities, many of whom--you have private owners, utility 
companies, and others that we have to negotiate with.
    But the long and the short of it is that there is this 
desire, I think, on the part of the public to preserve what 
little open space is available.
    In my district, for example, we have a larger percentage in 
high-density and a very low amount of available open space for 
people to enjoy, to recreate, and to continue to support.
    So I want to associate myself with your bill, and I look 
forward to seeing it pass through this Committee.
    Mr. Hefley. I think this Committee illustrates better than 
anything in a long time the difference in needs and desires of 
people in various regions of the country.
    You are tinkled pink with the idea of additional Federal 
participation in your states. Jim and I, 90 percent in his 
state and about a third of my state is owned by the Federal 
Government, and so we say, ``Oh, no. No more Federal Government 
in our states.''
    I put a great deal of confidence in you folks from the 
area--maybe not quite like Don Young, Dale.
    But you know your area better than we do. I have been 
there, but Jim has not been there. We don't know your area.
    I know Wayne's area a little bit. And I understand 
perfectly what he is wanting in a habitat type of corridor 
there, and it makes a lot of sense to me.
    But I wish that you all from the East, when these western 
land issues come up, would give us the same respect that we 
give you in assuming that you know better than we do what is 
important in your area.
    The ridiculousness of Mo Hinchey from New York introducing 
a wilderness bill for Utah, you know, it doesn't make any sense 
at all, except some wilderness conservation group has gotten to 
him and gotten him to introduce that bill. He doesn't know what 
that means to the school districts and the little communities 
out there in the West if you take what is now multiple-use land 
and all of a sudden you fence it off.
    I don't know in Michigan about that 100,000 acres that you 
got designated as wilderness. I would like for you to invite me 
up there. I would love to go see that because I love 
wilderness. But I think there ought to be a balance.
    But what I am trying to say is that when you are not from 
those areas and you don't know the ramifications, I wish you 
would give the nod to some of us who do live there and have to 
live with those situations, the same as we should give the nod 
to you on things like this.
    I think what you are talking about, on the surface of it, 
sounds terrific. And I would hope that the study shows that it 
is terrific and it works out.
    I have the same concerns that Mr. Duncan and Mr. Gibbons 
expressed about private landowners, and we have to work that 
out properly.
    Conservation easements of one kind or another, I like that 
idea. I think that is a good idea. We don't have to own it all, 
if we can get the conservation easements.
    But I think this is a good hearing to show the difference 
in desires. And in the future, maybe we can work together 
better on this kind of thing.
    Any further questions or comments, Committee?
    If not, thank you very much. And if you would like to join 
us, we would be happy to have you do that.
    Mr. Denis Galvin, who is the deputy director of the 
National Park Service, will speak on both bills.
    Mr. Galvin?

   STATEMENT OF DENIS GALVIN, DEPUTY DIRECTOR, NATIONAL PARK 
     SERVICE, DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Galvin. Mr. Chairman, I have prepared testimony on both 
bills that I will submit for the record. I will simply 
summarize the administration position on these two bills.
    I have with me Rebecca Harriett, the superintendent of 
Booker T. Washington National Monument. She will be able to 
answer any more detailed questions, should it please the Chair.
    We are pleased for the opportunity to give our views H.R. 
1456, a bill to expand the boundary of Booker T. Washington 
National Monument in Franklin County, Virginia.
    The department supports H.R. 1456.
    It would not contribute to the National Park Service 
maintenance backlog because if the land is acquired, it would 
be added to the park's agricultural permit program. No 
additional facilities would be built on it, no operating funds 
would be required, no additional staffing would be needed.
    The current owners have indicated that they would be 
willing to sell the property to the United States. If 
authorized, this acquisition would be subject to service-wide 
priorities and the availability of appropriations.
    As Congressman Goode testified, we are talking about a 
parcel of approximately 15 acres abutting the northeast 
boundary of the park. This current landscape is consistent with 
the agricultural landscape inside the park, but it is in a 
region subject to extreme development pressures.
    In fact, the next tract beyond this tract has been 
developed. In the photographs that I have reviewed, you can see 
the development from this track.
    Seven of the 15 acres were part of the original Burroughs 
farm where Booker T. Washington grew up. The monument was 
authorized in April 1956 to create a public national memorial 
to Booker T. Washington, noted Negro educator and apostle of 
goodwill.
    It protects the birth site and childhood home of Booker T. 
Washington. It provides a resource for public education and a 
focal point for continuing discussions about the legacy of 
Booker T. Washington and the evolving context of race in 
American society.
    As I said, the park is 224 acres. It includes the Burroughs 
house site, not the house itself, two slave cabin sites that 
are 1960's reconstruction.
    It was an agricultural landscape when Booker T. Washington 
was born there, and it remains an agricultural landscape today. 
In his biography, ``Up from Slavery,'' Washington frequently 
referred to the rural life and the influences it had upon him.
    The Park Service did a viewshed study in 1998 and 
identified this land as the most critical for addition to 
boundary based on its elevation and proximity to the birthplace 
site.
    Acquisition of this parcel would provide the necessary 
intervening land between development and the agricultural scene 
of the park, so that visitors will be able to experience the 
area as it was during Booker T. Washington's occupancy.
    I would be glad to answer any questions, Mr. Chairman. If 
it pleases you, I could go on to the second bill.
    Mr. Hefley. Why don't you go on to the second.
    Mr. Galvin. I am pleased to present the department's views 
on H.R. 1814, a bill to amend the National Trails System Act to 
designate the Metacomet-Monadnock-Sunapee-Mattabesett trail 
extending through New Hampshire, Massachusetts, and 
Connecticut.
    The trail extends from Mount Cube in Grafton Country, New 
Hampshire, to the Long Island Sound. That is, the proposed 
trail does.
    The department supports this study. However, we will not 
consider requesting funding for this study in this or the next 
fiscal year. We are undertaking, currently, 41 authorized 
studies.
    We caution that our support of this legislation does not 
necessarily mean that the department will ultimately support 
designation of these segments as additions to the National 
Trails System.
    The administration is determined to eliminate the deferred 
maintenance backlog in national parks, but the cost of new 
parks or other commitments could divert funds from taking care 
of current possibilities.
    The previous witnesses have certainly adequately discussed 
the concept of this trail. It is 260 miles long. It would 
connect the Appalachian Trail to the Long Island Sound in 
Connecticut.
    It would largely follow existing trails. The new trail 
sections would need to be developed in New Hampshire to connect 
the Appalachian Trail at the north end, and in Connecticut, 
linking the Mattabesett Trail to Long Island Sound at the south 
end.
    Other shorter gaps would also need to be filled. And the 
study would, obviously, look at those needed additions.
    The great majority of this trail is on private land. 
Outside of sections of trail on state lands, the trail 
currently is permitted to cross private land through a variety 
of agreements with the landowners.
    This is not a historic route, and it is not proposed to be 
a national historic trail. Each section was conceived and built 
by local trail enthusiasts, and much of the work was initiated 
in the late 1950's.
    The partners included the Connecticut Forest and Park 
Association for the Connecticut trail, the Appalachian Mountain 
Club through its Berkshire chapter in Massachusetts, and a 
relatively new Monadnock-Sunapee greenway trail club, which has 
the primary responsibility for the trail in New Hampshire.
    Organized volunteers would provide the management and 
maintenance for each trail section, as in the case of the 
Appalachian Trail, Mr. Chairman. If the trail was designated as 
part of the National Trails System, those existing trail clubs 
would continue to be given the opportunity to assume a 
leadership role.
    The existing sections have similar scenic and recreational 
characteristics to the Appalachian Trail. And as I said, the 
concept would be to continue the role of volunteers and trail 
organizations as major participants in the operation, 
placement, and creation of the trail.
    As Mr. Olver mentioned, Secretary Gale Norton in June of 
this year designated two sections of part of this trail as 
National Recreation Trails. The National Trails Act gives her 
that authority.
    The designation of a National Scenic Trail, proposed in 
H.R. 1814, of course, requires an act of Congress.
    We support this proposed study. As Congresswoman Johnson 
mentioned, such studies have been effective in New England in 
determining management formulas that fit the local situation, 
both on trails and in Heritage areas and in Wild and Scenic 
Rivers. And that would be our intention as we undertake this 
study in this three state area.
    We believe the study would take 3 years to complete. It 
would follow the requirements set out in Section 5(b) of the 
National Trails System Act, which requires considerable public 
input. As was pointed out by the previous witnesses, we are 
talking about hundreds of communities here. And it would be our 
intention, certainly, to get their input as we come forward 
with a recommendation to the Congress upon the completion of 
the study.
    That concludes my summary, Mr. Chairman. I would be happy 
to answer any questions of the Subcommittee.
    [The prepared statement of Mr. Galvin on H.R. 1456 
follows:]

Statement of Denis Galvin, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 1456

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R.1456, a bill to expand the 
boundary of Booker T. Washington National Monument, Franklin County, 
Virginia.
    The Department supports H.R.1456. The addition would not contribute 
to the National Park Service (NPS) maintenance backlog because the land 
would be added to the park agricultural permit program, and no 
additional facilities, operating funds or staffing will be needed. The 
current owners have indicated that they would be willing to sell the 
property to the United States. If authorized, this acquisition would be 
subject to NPS servicewide priorities and the availability of 
appropriations.
    This legislation will adjust the boundary of Booker T. Washington 
National Monument to authorize acquiring from willing sellers a parcel 
of approximately 15 acres abutting the northeast boundary of the park. 
The addition and preservation of this 15-acre tract will ensure that 
park visitors may experience an agricultural landscape while inside the 
park, in a region that is subject to extreme development pressure. 
Seven of the 15 acres were part of the original Burrough's farm where 
Booker T. Washington grew up.
    Booker T. Washington National Monument was authorized on April 2, 
1956, to create a ``public national memorial to Booker T. Washington, 
noted Negro educator and apostle of good will.'' Booker T. Washington 
National Monument preserves and protects the birth site and childhood 
home of Booker T. Washington while interpreting his life experiences 
and significance in American history as the most powerful African 
American between 1895 and 1915. The park provides a resource for public 
education and a focal point for continuing discussions about the legacy 
of Booker T. Washington and the evolving context of race in American 
society.
    The park is 224 acres of rolling hills, woodlands, and agricultural 
fields. The primary archeological resources include the Burrough's 
house site, or ``Big House,'' two slave cabin sites with a 1960's 
reconstructed cabin on one of the sites. The agricultural landscape 
plays a critical role in the park's interpretation of Washington's life 
as an enslaved child during the Civil War. Many of his stories and 
experiences are centered on this small tobacco farm. In his 
autobiography Up From Slavery Washington frequently refers to the 
``rural'' life and the influences it had upon him.
    A 1998 Viewshed Study conducted as a component of the park's March 
2000 General Management Plan (GMP) identified this land as the most 
critical for addition to the boundary based on its elevation and 
proximity to the birthplace site. The parcel has been on and off the 
market for several years and is currently for sale. The land is 
currently used for open agricultural fields.
    The park is located near the regional recreation area of Smith 
Mountain Lake, which has grown in population and development in the 
last ten years. The park lies a half-mile from a commercial crossroads 
called Westlake Corner. This area has become the primary hub of 
services for the Smith Mountain Lake community and continues to grow. 
Acquisition of this parcel would provide the necessary buffer between 
this development and the park so that the visitors will be able to 
experience the area as it was during Booker T. Washington's life.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any question that you or 
members of the subcommittee might have.
                                 ______
                                 
    [The prepared statement of Mr. Galvin on H.R. 1814 
follows:]

Statement of Denis Galvin, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 1814

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1814, a bill to amend the National Trails System Act to designate 
the Metacomet-Monadnock-Sunapee-Mattabesett Trail extending through 
western New Hampshire, western Massachusetts, and central Connecticut 
for study for potential addition to the National Trails System. The 
trail would traverse in a north-south direction from a location near 
Mount Cube in Grafton County, New Hampshire, and extend to the Long 
Island Sound east of New Haven, Connecticut. The Department supports 
this study.
    Although the Department supports enactment of this legislation in 
concept, we will not consider requesting funding for this study in this 
or the next fiscal year. As of now, there are 41 authorized studies 
that are pending, and we only expect to complete a few of those this 
year. We caution that our support of this legislation authorizing a 
study does not necessarily mean that the Department will support 
designations of these segments as additions to the National Trails 
System. The Administration is determined to eliminate the deferred 
maintenance backlog in national parks, but the cost of new parks or 
other commitments could divert funds from taking care of current 
responsibilities.
    The purpose of this bill is to conduct a study to determine the 
suitability for inclusion in the National Trails System of this 260-
mile extended trail, which could eventually connect the Appalachian 
National Scenic Trail in New Hampshire with Long Island Sound in 
Connecticut. The Trail would largely follow existing trails linking the 
Monadnock-Sunapee-Greenway Trail in New Hampshire, to the Metacomet-
Monadnock Trail in Massachusetts and Connecticut, to the Mattabesett 
Trail in Connecticut. New trail sections would need to be developed in 
New Hampshire connecting the Appalachian Trail to the top of Mount 
Sunapee, and in Connecticut linking the Mattabesett Trail to Long 
Island Sound. Other shorter gaps would also need to be filled. The 
great majority of this trail is located on private land. Outside of 
sections of trail on state lands, the trail currently is permitted to 
cross private land through a variety of agreements with the landowners. 
As part of this study, these agreements should be examined to ensure 
that the National Park Service works cooperatively with private 
landowners in an effort to continue public access across these private 
lands if the trail is designated.
    Although the region was heavily traveled by Native Americans, for 
whom the trails have been named, it is not an historic route. Each 
section was conceived and built by local trail enthusiasts and much of 
the work was initiated in the late 1950's. The Connecticut Forest and 
Park Association has been the primary steward of the Mattabesett Trail 
and the Connecticut portion of the Metacomet Trail. The Appalachian 
Mountain Club, through its Berkshire Chapter, has picked up the 
responsibility for the Metacomet--Monadnock Trail in Massachusetts. The 
relatively new Monadnock-Sunapee-Greenway Trail club has the primary 
responsibility for the trail in New Hampshire. Organized volunteers 
provide the management and maintenance for each trail segment. If the 
trail was designated as part of the National Trails System, then 
existing trail clubs would be given the opportunity to assume a 
leadership role in working with landowners and communities to address 
any concerns they may have.
    The existing sections of this proposed trail have similar scenic 
and recreational characteristics to the segments of the Appalachian 
National Scenic Trail in New Hampshire, Massachusetts, and Connecticut. 
The trails provide for a rare opportunity for multi-day, overnight 
hiking trips in highly populated Connecticut and Massachusetts. In 
Connecticut and Massachusetts, the state governments and well-
established trails organizations have made substantial commitments to 
the existing trail sections. In New Hampshire, the trail organization, 
which serves as steward to the trail, is relatively new and its 
commitment to the New Hampshire section of the trail is not as certain. 
Our experience with other national scenic and historic trails shows 
that trail clubs can and should assume a leadership role in working 
with landowners and communities, addressing their concerns to make 
their trails successful. The opportunity for good partnering exists in 
all three states and is worthy of further exploration.
    In June 2001, Secretary Gale Norton designated two sections of the 
Metacomet-Monadnock Trail as a national recreation trail, recognizing 
the outstanding scenic features, geological formations, and natural and 
cultural resources along the route. There are well over 800 national 
recreation trails in the National Trails System. The designation of the 
national scenic trail proposed in H.R. 1814 would, if successful, 
provide more extensive Federal involvement, through the authorities of 
the National Trails System Act for this chain of trails.
    The National Park Service supports this proposed study, as the 
existing trail segments possess many of the characteristics required of 
a national scenic trail. Only through further investigation will it be 
possible to determine if it is feasible and suitable for inclusion in 
the National Trails System. Furthermore, in order to better plan for 
the future of our national parks, we believe that any such studies 
should carefully examine the full life cycle operation and maintenance 
costs that would result from each alternative considered.
    If H.R. 1814 is enacted and funds are available, the National Park 
Service would launch a study of the existing and proposed trails 
segments to evaluate the support for the trail, the impacts of federal 
involvement on the communities and private property it passes through, 
and the resources which would be opened for public use. The study would 
take approximately three years to complete and would, at a minimum, 
follow the requirements listed in section 5(b) of the National Trails 
System Act. Through this process, the National Park Service looks 
forward to working with and hearing the valuable input of the hundreds 
of communities that these trails cross in New Hampshire, Massachusetts, 
and Connecticut.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 
    Mr. Hefley. Questions, Committee?
    Ms. Solis?
    Mr. Gibbons?
    Mr. Gibbons. Yes, thank you very much.
    I noticed in your testimony, Mr. Galvin, you used the words 
experience an ``agricultural landscape'' while within the park. 
What is the significance or importance of experiencing an 
agricultural landscape?
    Mr. Galvin. Well, Booker T. Washington for the first 9 
years of his life was a slave on a tobacco farm in this portion 
in Virginia. And he mentions in ``Up from Slavery'' how 
important that rural and agricultural surrounding was to him.
    We also manage another great site associated with Booker T. 
Washington, the Tuskegee Institute. That is, it is still a 
private college, but we run a museum on the site there.
    And his whole approach to education was very strongly 
influenced--and somewhat controversially, too, I might say--
influenced by his agricultural experience. The buildings at 
Tuskegee were built by the students--
    Mr. Gibbons. Within the national monument itself, the 
Booker T. Washington monument, that 224-acre site, without the 
15 acres that we are discussing in this bill, are there 
agricultural experiences within there?
    Mr. Galvin. Yes. Yes, we do agricultural leasing within the 
boundaries of the monument.
    Mr. Gibbons. So you find that having an agricultural 
experience within a national monument or any part of the Park 
Service is not a detriment?
    Mr. Galvin. No. Certainly not.
    Obviously, it depends on the purposes that Congress sets 
forth. But I was up at Minute Man National Historical Park in 
Massachusetts last Friday, and they have agricultural leases as 
well, because in the 18th century obviously it was an 
agricultural landscape.
    Mr. Gibbons. Going over H.R. 1814, the bill on the trail up 
there, do you have an estimate of the cost to the government to 
maintain the trail, should it become a National Scenic Trail. 
What would be the cost to your agency?
    Mr. Galvin. We really don't have an estimate. We would put 
one in the study.
    But I would say that the model here is definitely the 
Appalachian Trail. And on the Appalachian Trail, for the entire 
length of the Appalachian Trail, I believe the National Park 
Service has about three employees. All of the maintenance on 
the trail is done by private trail groups.
    And I would think that that would be the experience here. 
We might have a coordinator, one person on the ground here, but 
the actual operation and maintenance of the trail would be done 
by trail groups.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Goode?
    Well, thank you very much.
    Mr. Galvin. Thank you, Mr. Chairman.
    Mr. Hefley. Very helpful, and we appreciate it.
    Third panel, Ann Colson, director of volunteers and trails 
coordinator for the Connecticut Forest and Park Association; 
Peg Brady, executive director, Appalachian Mountain Club, 
Boston; and Florella Johnson, associate superintendent of 
Franklin County Schools, Rocky Mount, Virginia.
    Why don't we start with you, Ms. Johnson, because I assume 
you are going to be talking about Booker T. Washington, since 
you are from Virginia?
    Ms. Johnson. Yes, sir.
    Mr. Hefley. All right, let's have that first, and then we 
will get to the trail.

   STATEMENT OF FLORELLA JOHNSON, ASSOCIATE SUPERINTENDENT, 
         FRANKLIN COUNTY SCHOOLS, ROCKY MOUNT, VIRGINIA

    Ms. Johnson. Mr. Chairman and Subcommittee members, thank 
you very much for the opportunity to speak to you today. It is 
a pleasure to share my feelings and the feelings shared by many 
of Franklin County about the services afforded us by the Booker 
T. Washington National Monument.
    The Booker T. Washington National Monument is located in a 
lovely, rural mountain region of southwest Virginia. This 
setting lends an authentic feeling for the monument that 
recaptures the true atmosphere of the past.
    It is one of the few National Park Service sites that is 
set aside where the America public can view on a smaller scale 
how slavery and the plantation system worked.
    This site includes historical structures, archaeological 
sites, museum objects, and a cultural landscape that are very 
significant to its history. The development of surrounding land 
will serve to enhance or diminish the quality of the monument's 
natural resources.
    It certainly must be our goal to keep the monument as close 
to its origin state as possible.
    The Booker T. Washington monument is a wonderful setting 
for a man of stature who confessed he learned this lesson:
    ``I have learned that success is to be measured not so much 
by the position that one has reached in life as by the 
obstacles which he has overcome while trying to succeed. Out of 
the hard and unusual struggle through which he is compelled to 
pass, he gets a strength, a confidence, that one misses whose 
pathway is comparatively smooth by reason of birth and race.''
    This lesson that Booker T. learned is an inspiration to all 
children. He has certainly shown that the most difficult and 
toughest obstacles can be realized through perseverance and 
hard work. Booker T.'s life is definitely an example of the 
kind of people who make our country great.
    As a citizen of Franklin County in Rocky Mount, Virginia, I 
take great pride in living in a county that has a national 
monument. Though all counties in the country have a history, 
and many have histories of a community rich in heritage, 
Franklin County actually has a national monument to commemorate 
the nationally recognized educator Booker T. Washington.
    As an African-American who lives in Franklin County, I take 
even greater pride in living in a county that has a national 
monument erected for an African-American.
    Though we know that national monuments don't exist in every 
county and city in the country, a national monument erected for 
an African-American is an ever more rare occurrence.
    Because Franklin County has the Booker T. Washington 
National Monument, the people in the county can take pride in 
knowing that this great African-American educational leader had 
his roots in the county.
    Just as it is important to know his legacy, it is equally 
important to maintain the integrity of his birthplace. 
Maintaining the integrity of the birthplace includes not only 
sustaining the upkeep and appearance of the existing land but 
also ensuring that surrounding land continues to provide the 
appearance of the scene set on the existing farm.
    The purchase of surrounding land on the other side of Route 
122 would ensure that this happens.
    As I travel through Appomattox, Virginia, in the historical 
area commemorating the final battles of the Civil War, the 
scene on both sides of Route 24 provides a perfect setting to 
commemorate this great occasion.
    The other aspect of the Booker T. Washington monument is 
the educational value it holds for the students in Franklin 
County.
    The superintendent and staff at the Booker T. Washington 
National Monument have been actively involved in establishing a 
working relationship with the Franklin County School System and 
the communities surrounding the park. This is a partnership 
that is educationally rewarding for the school system's 7,000 
students.
    One objective of the Park Service has been to structure the 
educational program to correlate with the standards of 
learning, commonly called in Virginia the SOLs, for the public 
schools there.
    Several summers ago, a workshop was held at the park where 
the Booker T. Washington program coordinators and Franklin 
County teachers worked on developing a curriculum guide for 
grades K-5. The guides were printed and placed in each 
elementary schools' main office, library, and the school board 
resource center.
    This summer, 2001, a group of teachers will work again with 
the program directors to update and refine their goals.
    During the summer of 2000, the Booker T. Washington 
National Monument service provided a historical camp for upper 
elementary level students.
    For the past 3 years, students in the Franklin County 
gifted program went to the monument for a unique Christmas 
experience based on the book ``Christmas in the Big House, 
Christmas in the Quarters.''
    The Booker T. Washington rangers did a reenactment of what 
Christmas was like during the time Booker lived on the 
Burroughs plantation. This was a wonderful opportunity for 
children, their families, and community visitors to come 
together for a festive preseason celebration with stories, 
music, and refreshments.
    During history month, students study the events in history 
that coincide with the time Booker lived on the Burroughs 
plantation and wrote an original interpretation of the 
Underground Railroad. The play was presented to family and 
friends on a Saturday at the park. Many gathered and witnessed 
a superb performance by students. They had an opportunity to 
share with family and citizens their understanding of an 
important event in history.
    Farm life is vanishing fast in America. Even though our 
students live in a rural area, they do not have exposure to 
farm life as it once existed. At least this life is still 
addressed at the monument. Students have the wonderful 
opportunity to relive this life through artifacts, houses, 
occupations, et cetera.
    I like change, but sometimes things need to remain the 
same. The agricultural setting across from the monument must be 
allowed to remain. This will only be realized if the 15-acre 
desired tract is obtained.
    Recognition of the past is as vital to a growing 
institution as recognition of the future. As you take a walk 
through the Burroughs plantation, a site restored to it general 
appearance in the mid-19th century, you can feel history of the 
past.
    I am here today asking you to obtain the 15-acre tract so 
the Booker T. Washington monument can be preserved and 
protected.
    And I would like to add, if we miss the purchase of this 
tract for the monument, a crucial opportunity will be missed.
    Thank you, Mr. Chairman, for this opportunity.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] T4087.038
    
    [GRAPHIC] [TIFF OMITTED] T4087.039
    
    [GRAPHIC] [TIFF OMITTED] T4087.040
    
    [GRAPHIC] [TIFF OMITTED] T4087.041
    
    Mr. Hefley. Thank you.
    Ms. Brady?

    STATEMENT OF PEG BRADY, EXECUTIVE DIRECTOR, APPALACHIAN 
              MOUNTAIN CLUB, BOSTON, MASSACHUSETTS

    Ms. Brady. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to speak.
    On behalf of all the AMC members, the Appalachian Mountain 
Club members, I am here today to speak in support of the H.R. 
1814, requesting the funds to move forward on a feasibility 
study.
    I would like to read my comments, if I could.
    We commend the Committee for taking a leadership role in 
exploring new opportunities in New England to enhance the 
network of hiking trails. And I also would like to point out, I 
appreciate the deliberativeness with which you are approaching 
these comments and discussions, particularly with regard to Mr. 
Gibbons' comments about ownership and property rights.
    Mr. Chairman, as I say, I come here to speak to you in 
support and offer our following recommendations.
    The Appalachian Mountain Club, first of all, is the oldest 
nonprofit conservation and recreation organization in the 
United States, with a membership of over 95,000 members. We are 
very, very active players in the New England trail network. And 
many of these folks that are our members are very, very active 
volunteers, as Mr. Olver had mentioned earlier. Our Berkshire 
chapter has been the backbone for his efforts in the 
Massachusetts area.
    AMC promotes the protection, the enjoyment, and the wise 
use of mountains, rivers, and trails in the Appalachian 
Mountain region. We service the Appalachian region from 
Virginia north, all the way north to Maine.
    AMC provides regional and national leadership in trail 
corridor planning, construction, maintenance, and now we are 
getting very deeply involved in trail head protection efforts 
in the State of New Hampshire.
    AMC is responsible for the management and maintenance and 
stewardship of over 1,400 miles of trails throughout the AMC 
region. And each year, over 1,000, as I mentioned, volunteers, 
members of AMC, are working hand in hand with partnership 
groups like Ann's group, working to maintain trails throughout 
this region.
    AMC's White Mountain professional trail crew is responsible 
for nearly 350 miles of trails and 800-plus trail signs, which 
oftentimes disappear through a season.
    We work cooperatively with the Federal, state, and local 
agencies, as well as other nonprofit organizations, to protect 
and care for trails, knowing that experiences they provide are 
invaluable to the public.
    The trails identified and proposed in this study provide a 
unique and valuable recreation opportunity in addition to 
stunning vistas from key ridges and peaks along the trail 
network. This network passes along special streams, marshes, 
lakes, ponds, while taking hikers, skiers, through forests and 
agricultural lands that provide both solitude and a glimpse 
into the cultural character and history of New England 
communities and play a host to these footpaths and their 
visitors.
    We believe the mountains and the rivers have an intrinsic 
worth and also provide the needed--and I say desperately 
needed, in some cases with some of the communities that are 
mentioned today--desperately needed recreational opportunity, 
spiritual renewal, ecological and economic health for the 
region.
    AMC encourages its members and the public to enjoy and 
appreciate the natural world, because we believe that that 
successful conservation and stewardship depends largely on that 
type of an experience.
    The Metacomet-Monadnock-Sunapee-Mattabesett trail system as 
it exists today is a resource that presents extensive 
opportunities for both long-distance backpacking, as well as 
local day hiking, cross-country skiing, jogging, and other 
fitness activities that are easily accessible to people in the 
surrounding communities.
    Ongoing efforts since the 1920's and 1930's to secure 
access to and maintain these trails have been critical to the 
continued enjoyment of the trail and helped to preserve its 
landscape and a corridor of fragile habitat, reaching from 
Connecticut to New Hampshire.
    The proposed designation as a National Scenic Trail would 
create the opportunity to ensure that these outdoor experiences 
could be enjoyed throughout this proposed corridor for 
generations to come.
    The backbone of each stretch of this trail system consists 
of dedicated volunteers, including the AMC members and its 
chapters, that have identified trail alignments, worked with 
private property owners to ensure appropriate uses, published 
guides to inform the public and the users of the trails, and 
maintained the trails over the years to lessen the effects of 
overuse and unsafe conditions.
    The proposed study and potential designation of the trail 
would provide the volunteers with the additional source of 
funding for maintenance and long-term planning.
    The designation would also increase the organizational 
support to recruit additional volunteers and garner additional 
resources for ongoing maintenance needs and landowner 
relations.
    Quite frankly, we could be leveraging considerable more 
resources, not only from public sources, but also from private 
sources. This could serve a catalyst throughout the entire 
region.
    Based on discussions we have had with our members and 
partner organizations, the AMC offers its support for the 
feasibility study of the trail for the benefits that the 
designation as a National Scenic Trail could provide to 
recreational opportunities and the protection of the habitat 
corridor.
    Based on past studies and the development of the National 
Scenic Trail systems, AMC recognizes that the issue of public 
land acquisition and methods used are often of great concern 
and may affect local support for final designation.
    We understand from AMC members and partner organizations 
that this is a concern that will need to be addressed during 
the feasibility study, as you folks have all suggested, prior 
to the designation.
    AMC hopes that this study will build on the good relations 
that now exist among the property owners and maintaining clubs 
throughout this network. We encourage the feasibility study to 
be conducted in a manner that continues to involve the 
maintaining clubs, the associations, and the state land 
management agencies, as they have been in the course of 
discussions leading to this point.
    The success of this initiative will depend largely on the 
communications among the private landowners, who up until now 
have generously allowed trail use through their properties, and 
as well as reaching out to other interested parties who are not 
currently involved.
    Since designation as a National Scenic Trail could result 
in increased use of the trail system by long-distance hikers, 
particularly if it provides a connection to the Appalachian 
Trail, AMC recommends that the feasibility study include: an 
assessment of anticipated use, the adequacy of overnight 
facilities, and the additional maintenance and management needs 
that would be required to accommodate new users and avoid any 
potential negative impacts to the system or the surrounding 
areas.
    AMC would be very happy to serve as a resource for 
information on trail usage throughout New Hampshire as well as 
management of backcountry facilities.
    Finally, AMC understands that there will be additional 
discussions at the local level with the maintaining clubs and 
the state land management agencies. We hope that with all the 
input gathered through this process, will be used in developing 
the scope of this feasibility study.
    Again, I thank you very much for the opportunity to present 
these comments, and I would be open to questions. Thank you.
    [The prepared statement of Ms. Brady follows:]

Statement of Peg Brady, Director of Conservation Programs, Appalachian 
                      Mountain Club, on H.R. 1814

    Thank you, Mr. Chairman and members of the committee. The 
Appalachian Mountain Club (AMC) appreciates the committee's invitation 
to attend today's hearing. I offer the following testimony for your 
consideration regarding the House Bill 1814, entitled ``To Amend the 
National Trails System Act to designate the Metacomet-Monadnock-
Sunapee-Mattabesett Trail extending through eastern New Hampshire, 
western Massachusetts, and central Connecticut for study for potential 
addition to the National Trails System''. We commend the committee for 
taking a leadership role and exploring new opportunities in New England 
to enhance the network of hiking trails. Mr. Chairman and members of 
the committee, I come before you today to speak in support of H.R. 1814 
and offer the following recommendations.
    The Appalachian Mountain Club (AMC) is the oldest non-profit 
conservation and recreation organization in the United States with a 
membership of over 95,000. The AMC promotes the protection, enjoyment 
and wise use of the mountains, rivers and trails of the Appalachian 
Mountain region. AMC provides regional and national leadership in trail 
corridor planning, construction and maintenance and trailhead 
protection. AMC is responsible for the management, maintenance, and 
stewardship of over 1,400 miles of trails throughout out the AMC region 
and each year over 1000 volunteers contribute their time---many of them 
contribute a full week---to keeping the trail system in top condition. 
AMC's White Mountain Professional Trail crew is responsible for nearly 
350 miles of trails and 800+ trail signs. We work cooperatively with 
Federal, State and Local agencies as well as other non-profit 
organizations to protect and care for trails knowing that the 
experiences they provide are invaluable to the public.
    The trails identified and proposed for National Scenic Trails study 
in H.R. 1814 provides unique and valuable recreational opportunities in 
addition to stunning vistas from key ridges and peaks. This trail 
network pass along special streams, marshes, lakes, and ponds while 
taking hikers and skiers through forests and agricultural lands that 
provide both solitude and a glimpse into the cultural character of the 
New England communities that play host to these footpaths and their 
visitors. We believe that the mountains and rivers have an intrinsic 
worth and also provide needed recreational opportunity, spiritual 
renewal, and ecological and economic health for the region. AMC 
encourages people to enjoy and appreciate the natural world because we 
believe that successful conservation and stewardship depends on this 
experience.
    The Metacomet-Monadnock-Sunapee-Mattabesett trail system as it 
exists today is a resource that presents extensive opportunities for 
both long distance backpacking as well as local day hiking, cross 
country skiing, jogging, and other fitness activities that are easily 
accessible to people in the surrounding communities. Ongoing efforts 
since the 1920's and 1930's to secure access to and maintain these 
trails have been critical to the continued enjoyment of the trail and 
helped to preserve its landscape and a corridor of fragile habitat 
reaching from Connecticut to New Hampshire. Designation as a National 
Scenic Trail would create the opportunity to ensure that these outdoor 
experiences could be enjoyed throughout this proposed corridor for 
generations to come.
    The backbone of each stretch of this trail system consists of 
dedicated volunteers, including AMC members and its Chapters, that have 
identified the trail alignments, worked with private landowners to 
ensure appropriate use, published guides, and maintained the trails 
over the years to lessen the effects from overuse and unsafe 
conditions. The proposed study and potential designation as a National 
Scenic Trail would provide the volunteers with an additional source of 
funding for maintenance and long-term planning. The designation would 
also increase the organizational support to recruit additional 
volunteers and garner additional resources for ongoing maintenance 
needs and landowner relations.
    Based on discussions we have had with our members and partner 
organizations, the AMC offers its support for the feasibility study of 
the Metacomet-Monadnock-Sunapee-Mattabesett Trail for the benefits that 
designation as a National Scenic Trail could provide to recreational 
opportunities and the protection of the habitat corridor.
    Based on past studies and development of National Scenic Trail 
systems, AMC recognized that the issue of public land acquisition and 
methods used are often of great concern and may affect local support 
for final designation. We understand from AMC members and partner 
organizations that this is a concern that will need to be addressed 
during the feasibility study prior to the designation of the Metacomet-
Monadnock-Sunapee-Mattabesett trail system. AMC hopes that this study 
will build on the good relations that now exist among property owners 
and the maintaining clubs. We encourage the feasibility study to be 
conducted in a manner that continues to involve the maintaining clubs, 
associations and state land management agencies, as they have been in 
the course of discussions leading to this point. The success of this 
initiative will depend largely on the communication among the private 
landowners, who up until now, have generously allowed trail use through 
their properties and as well as reaching out to other interested 
parties.
    Since designation as a National Scenic Trail could result in 
increased use of the trail system by long-distance hikers, particularly 
if it provides a connection to the Appalachian Trail, AMC also 
recommends that the feasibility study include an assessment of 
anticipated use, the adequacy of overnight facilities, and any 
additional maintenance and management needs that would be required to 
accommodate new users and avoid negative impacts to the trail system or 
the surrounding areas. AMC would be happy to serve as a resource for 
information on trail usage throughout New Hampshire as well as 
management of backcountry facilities.
    Finally, AMC understands that there will be additional discussions 
at the local level with maintaining clubs and state land management 
agencies. We hope that all input gathered through the stakeholder 
process will be considered in developing the scope of the feasibility 
study.
    Thank you for your consideration of AMC's comments.
                                 ______
                                 
    Mr. Hefley. Ms. Colson?

  STATEMENT OF ANN COLSON, DIRECTOR OF VOLUNTEERS AND TRAILS 
COORDINATOR, CONNECTICUT FOREST AND PARK ASSOCIATION, ROCKFALL, 
                          CONNECTICUT

    Ms. Colson. Thank you, Mr. Chairman.
    I would like to say at the outset that we at the 
Connecticut Forest and Park Association have been extremely 
gratified by the overwhelming public response in favor of the 
proposed feasibility study.
    Letters of support from Connecticut town officials and land 
use agencies along the trail corridor, and from conservation 
organizations, trail managers, hiking groups, and individual 
trail users, along with the endorsement of--and I made a 
mistake here.
    I said the entire congressional delegation from 
Connecticut. That is incorrect. All of those Congresspeople who 
have trails going through their towns have endorsed this and 
are in support of the bill.
    They are all testimony to the support of H.R. 1814.
    Connecticut Forest and Park Association, for whom I work, 
was founded in 1895, and it was the organization that 
established the first four of the Blue-Blazed hiking trails. In 
1929, the Metacomet Trail was one of those.
    You can see from our map over here the trail corridor runs 
through the State of Connecticut. The Metacomet is the northern 
section. The Mattabesett Trail is the southern section.
    The yellow that you see are the potential towns that the 
trail can go through to get to Long Island Sound.
    The Town of Guilford, which is the yellow town furthest to 
the left, has worked very hard to bring this about. They are 
meeting with our roving trails crew to show them where the 
trail can go. It is very important to them from an economic 
standpoint. Conservation and recreational use of trails is very 
important to them as part of their town character.
    In 1932, the Mattabesett Trail was added to the Blue trail 
system, following the ridgeline south to Bluff Head in north 
Guilford, which is the southern most point of the trail now.
    When setting up the Blue-Blazed Hiking Trail System, the 
founding fathers also recognized the need for continuing trail 
maintenance, and, therefore, established a corps of volunteers 
who would oversee the trails.
    In 1929, there were 250 miles of Blue trails in 
Connecticut. Today, there are more 700 miles of trail.
    My role at Connecticut Forest and Park Association is 
director of volunteers and trails coordinator. There actually 
are 92 trail managers for the entire 700-mile system of trails.
    The growth of the trail system could not have been 
sustained without the dedication of a veritable army of 
volunteers who build, manage, and maintain the trails 
throughout the year.
    Twelve trail managers are assigned to the combined 108 
miles of the Mattabesett and Monadnock trails, which are also 
overseen by the CFPA trails Committee, which meets quarterly, 
and supported by CFP professional staff.
    These two trails pass through the state's most diverse 
landscape, from densely populated urban centers to cool 
forested woodlands, streams, and ponds, past picturesque 
agricultural fields and atop sheer cliff faces, offering 
sweeping views across Connecticut's central valley.
    On a clear day, hikers on the Metacomet Trail can see Long 
Island Sound to the south and Mount Tom in Massachusetts to the 
north. From Bluff Head, the 360-degree viewshed includes the 
distant city buildings of Hartford, our capital city, and the 
shimmering blue expanse of Long Island Sound, where it meets 
Connecticut's southern coast.
    I have been to a lot of states in this country, and I think 
Connecticut is probably the most diverse and one of the most 
beautiful. However, our population is exploding. We have 3 
million acres of land in Connecticut, and we have 3 million 
people in Connecticut. We have 1 million dwelling units 
Connecticut.
    We need these trails. We need the escape that they offer, 
and the opportunity to see the state from somewhere other than 
Route 95.
    Unsurpassed beauty is not all that awaits the curious 
observer who hikes on these trails. Fragments of Connecticut's 
history can be found amongst the oaks and sugar maples and 
white pines: forgotten cemeteries, tracks of former stagecoach 
routes, caves used by ancient Native American tribal councils, 
abandoned quarries, old cellar holes, and meandering rock 
walls.
    Off the Mattabesett Trail is a burial site marked only by a 
circle of large stones, where the remains of smallpox victims 
were laid to rest. Further north along the Metacomet Trail, a 
side trail brings hikers to Hospital Rock, which bears the 1792 
inscriptions of 66 smallpox victims.
    Scattered through the landscape are remnants of the 
charcoal mounds built by 19th century colliers who supplied 
charcoal for the state's once-thriving iron industry.
    The legacy of our nation's Civilian Conservation Corps 
remains in the bridges, dams, ponds, and lookout towers they 
constructed during the depression era of the 1930's.
    Hikers on the Metacomet Trail in Farmington can explore 
Will Warren's Den, a cave of huge jumbled rocks where Warren 
was hidden by Indians after he was flogged for not attending 
church and subsequently attempted to burn down the village of 
Farmington.
    The trail corridors also harbor relatively undisturbed, 
unique natural areas that provide critical habitat for a 
diverse range of animal and plant species. And from the state 
Department of Environmental Protection, I understand that some 
of the state-listed species along these two trails included 
yellow ladyslipper, goldenseal, squirrel corn, eastern box 
turtle, and Jefferson salamander. These are all rare or 
endangered species that can be found on the ridge tops.
    Today, the trails themselves are threatened. In the early 
to mid-20th century, permission to establish these footpaths 
was granted on the strength of a handshake by the farmers and 
wood-lot owners whose land the trails crossed.
    Today, fully 75 percent of the Blue-Blazed Hiking Trail 
System lies on private or quasi-public land, with only 25 
percent of the trails located on state-owned lands.
    Those sections of trail that are on privately held property 
exist only through the kind permission of the landowner. Few if 
any legal agreements are in place.
    The heightened economy of recent years has encouraged 
explosive development, often on lands that were once considered 
marginal, such as the ridge tops. As development pressure 
increases, so does the very real threat of being unable to 
retain the trails' continuity and integrity for future 
generations of hikers.
    We have launched a comprehensive trails protection program 
that we hope will provide permanent protection for the Blue-
Blazed Hiking Trail System. Metacomet and Mattabesett trails 
are the initial focus of this important initiative, which 
involves working in partnership with all stakeholders along the 
trail corridors.
    Stakeholders include individual and corporate property 
owners, trail managers, local land trusts, municipal governing 
boards, and land use agencies, regional planning agencies, and 
the Connecticut Department of Environmental Protection.
    Our own research and trail protection efforts during the 
past 2 years speak loudly to the need for H.R. 1814. I urge you 
to join with me in support of this bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Colson follows:]

      Statement of Ann T. Colson, Director of Volunteers & Trails 
   Coordinator, Connecticut Forest and Park Association, on H.R. 1814

    Mr. Chairman and members of the Committee, my name is Ann Colson. I 
am Director of Volunteers & Trails Coordinator for Connecticut Forest & 
Park Association, the private, nonprofit conservation organization that 
manages the 700-mile Blue-Blazed Hiking Trail System in my beautiful 
state of Connecticut. I am here this morning to testify in favor of 
H.R. 1814, the Metacomet-Monadnock-Sunapee-Mattabesett Trail Study Act 
of 2001.
    The Act specifies that a feasibility study be conducted for the 
potential addition to the National Trails System of the Metacomet-
Monadnock-Sunapee-Mattabesett Trail extending approximately 260 miles 
through Connecticut, Massachusetts, and New Hampshire. I would like to 
address the Connecticut sections of this multi-state trail, and how 
they are an integral part of the envisioned 260-mile New England Trail.
    Let me say at the outset that we have been extremely gratified by 
the overwhelming public response in favor of the proposed feasibility 
study. Letters of support from Connecticut town officials and land use 
agencies along the trail corridor, and from conservation organizations, 
trail managers, hiking groups, and individual trail users, along with 
the endorsement of the entire Connecticut Congressional Delegation, are 
all testimony to the support of H.R. 1814.
    Connecticut Forest & Park Association (CFPA), founded in 1895, 
established the first four of the Blue-Blazed Hiking Trails in 1929, 
including the Metacomet Trail, which traverses the magnificent traprock 
ridges in the north central part of Connecticut. In 1932 the 
Mattabesett Trail was added, following the ridgeline south to Bluff 
Head in north Guilford.
    When setting up the Blue-Blazed Hiking Trail System, the founding 
fathers also recognized the need for continuing trail maintenance and 
therefore established a corps of volunteers who would oversee the 
trails. In 1929 there were 250 miles of Blue-Blazed Trails. Today there 
are more than 700 miles. This growth could not have been sustained 
without the dedication of a veritable army of CFPA volunteers who 
build, manage, and maintain the trails throughout the year. Twelve 
trail managers are assigned to the combined 108 miles of the 
Mattabesett and Metacomet Trails, which are also overseen by the CFPA 
Trails Committee and supported by CFPA professional staff.
    These two trails pass through the state's most diverse landscapes, 
from densely populated urban centers to cool, forested woodlands, 
streams and ponds, past picturesque agricultural fields, and atop sheer 
cliff faces offering sweeping views across Connecticut's central 
valley. On a clear day, hikers on the Metacomet Trail can see Long 
Island Sound to the south, and Mt. Tom in Massachusetts to the north. 
From Bluff Head, the 360-degree viewshed includes the distant city 
buildings of Hartford, our capitol city, and the shimmering blue 
expanse of Long Island Sound where it meets Connecticut's southern 
coast.
    Unsurpassed beauty is not all that awaits the curious observer who 
hikes on these trails. Fragments of Connecticut's history can be found 
amongst the oaks and sugar maples and white pines--forgotten 
cemeteries, tracks of former stagecoach routes, caves used by ancient 
Native American tribal councils, abandoned quarries, old cellar holes, 
and meandering rock walls. Off the Mattabesett Trail is a burial site, 
marked only by a circle of large stones, where the remains of smallpox 
victims were laid to rest. Further north, along the Metacomet Trail, a 
side trail brings hikers to ``Hospital Rock,'' which bears the 1792 
inscriptions of 66 smallpox victims. Scattered through the landscape 
are remnants of the charcoal mounds built by 19th century colliers who 
supplied charcoal for the state's once-thriving iron industry. The 
legacy of our nation's Civilian Conservation Corps remains in the 
bridges, dams, ponds, and lookout towers they constructed during the 
depression era of the 1930s, many of which are accessible along the 
trails. Hikers on the Metacomet Trail in Farmington can explore Will 
Warren's Den, a cave of huge jumbled rocks where Warren was hidden by 
Indians after he was flogged for not attending church and subsequently 
attempted to burn down the village of Farmington.
    The trail corridors also harbor relatively undisturbed unique 
natural areas that provide critical habitat for a diverse range of 
animal and plant species. One of the distinguishing characteristics of 
Lamentation Mountain, across which the Mattabesett Trail runs, is the 
presence of two state threatened plant species (restricted information 
on file with the Natural Diversity Database of the Natural Resources 
Center, Connecticut Department of Environmental Protection). Exhibit A, 
attached to this testimony, describes Lamentation Mountain's natural 
communities, which are typical of those found on Connecticut's traprock 
ridge system, the 75-mile spine that is the framework for much of the 
Mattabesett Trail and the Metacomet Trail.
    Today the trails themselves are threatened.
    In the early- to mid-20th Century, permission to establish these 
footpaths was granted on the strength of a handshake by the farmers and 
woodlot owners whose land the trails crossed. Today, fully 75% of the 
Blue-Blazed Hiking Trails System lies on private or quasi-public land, 
with only 25% of the trails located on state-owned lands. Those 
sections of trail that are on privately held property exist only 
through the kind permission of the landowner. Few, if any, legal 
agreements are in place. The heightened economy of recent years has 
encouraged explosive development, often on lands that were once 
considered marginal, such as the ridgetops. As development pressure 
increases, so does the very real threat of being unable to retain the 
trails' continuity and integrity for future generations of hikers.
    In 1999, CFPA launched a comprehensive trails protection program 
aimed at providing permanent protection for the Blue-Blazed Hiking 
Trail System. The Metacomet and Mattabesett Trails are the initial 
focus of this important initiative, which involves working in 
partnership with all stakeholders along the trail corridors. 
Stakeholders include individual and corporate property owners, trail 
managers, local land trusts, municipal governing boards and land use 
agencies, regional planning agencies, and the Connecticut Department of 
Environmental Protection, which has jurisdiction over the state's 
public forests and parks.
    Our own research and trail protection efforts during the past two 
years speak loudly to the need for H.R. 1814, the Metacomet-Monadnock-
Sunapee-Mattabesett Trail Study Act of 2001. I urge you to join with me 
and the entire Connecticut Congressional Delegation in support of H.R. 
1814.
    Thank you, Mr. Chairman, for recognizing me. I yield the floor to 
questions.
                                 ______
                                 
    [Attachments to Ms. Colson's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T4087.032
    
    [GRAPHIC] [TIFF OMITTED] T4087.033
    
    [GRAPHIC] [TIFF OMITTED] T4087.034
    
    [GRAPHIC] [TIFF OMITTED] T4087.035
    
    [GRAPHIC] [TIFF OMITTED] T4087.036
    
    [GRAPHIC] [TIFF OMITTED] T4087.037
    
                                ------                                


    Mr. Hefley. Thank you.
    Ms. Solis?
    Ms. Solis. Just to thank the witnesses for coming here 
today. I found your testimony, all of you, quite interesting, 
and I look forward to working with you on these two pieces of 
legislation.
    Mr. Hefley. Mr. Goode?
    Mr. Goode. No questions, except to thank each one for being 
here.
    Mr. Hefley. Mr. Olver?
    Mr. Olver. I at this point want to thank you, Mr. Chairman, 
for your attention and patience and hopefully your support. You 
have already indicated that, in fact.
    But I do want to say that I think you can see from the 
testimony here that the two organizations, the Connecticut 
Forest and Park Association and the Appalachian Mountain Club, 
represent the critical universal joints through which the 
cooperative effort to provide public outdoor opportunities for 
the general public bring together the local land trusts and 
municipal conservation groups, the regional and national 
conservation groups, and trail nonprofit organizations. And the 
state and Federal Governments both work through those two 
organizations.
    They are key to outdoor recreational opportunities in 
Massachusetts and Connecticut.
    And without them, and they of course will be and must be a 
part of the feasibility work that is done with National Park 
Service, but without them, we would be in far poorer shape, in 
those two states at least.
    Thank you for being here.
    Mr. Hefley. Thank you. And I thank the witnesses.
    I live in Colorado, and I live on a ranch, where I can get 
on a horse and I can go into the trail system and the national 
forests from my house on horseback. And it is a terrific 
experience.
    So I am a big supporter of trails and the meaning that 
trails have.
    Now, I don't like it when you don't allow horses on trails, 
so I hope you allow horses on your trail as well.
    Mr. Olver. They wouldn't like the top of the basalt ridges.
    [Laughter.]
    Mr. Hefley. They might not. They might not.
    I also am a big fan of Booker T. Washington. I think he was 
a national hero. I think he transcended race.
    I understand your comments about how particularly for an 
African-American it is important, but I think most of us don't 
think whether he was African-American or not. He was a great 
American hero.
    And I want to thank Mr. Goode for bringing this to our 
attention. Otherwise, we would not have known of the need here 
for this buffer zone that is there.
    And your testimony, Ms. Johnson, was very eloquent, and we 
appreciate that.
    Ms. Johnson. Thank you.
    Mr. Hefley. We will consider these bills, hopefully in the 
foreseeable future. And this has been an excellent background 
for us to make hopefully a reasonable decision and hopefully a 
decision that you all will be pleased with.
    So thank you for coming. We thank for both of our 
Congressmen for bringing it to our attention.
    And this meeting stands adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]

    [A letter submitted for the record by Kevin Collins, Acting 
Director, Conservation Policy, National Parks Conservation 
Association, Washington, D.C., on H.R. 1456 follows:]
[GRAPHIC] [TIFF OMITTED] T4087.001

                                   - 

</pre></body></html>
